Case 3:15-cv-00831-NJR-DGW Document 117-2 Filed 08/27/20 Page 1 of 5 Page ID #976
Case:CteE&S668-26®ocurBeDtirO0ffitt3671589 Filed:IOifi5<(ll9lC8Bt20/2O2?bgei?^es: 5

3n %

Iftniteft States Court of Appeals
lor % jieitmify Circuit
No. 18-2660
Scott Hildreth,
Plaintiff-Appellant,
v.
Kim Butler, Lori Oakley, and
Wexford Health Sources, Inc.,
Defendants-Appellees.

Appeal from the United States District Court for the
Southern District of Illinois.
No. 3:15-cv-00831-NJR-DGW — Nancy J. Rosenstengel, Chief Judge.

On Petition for Rehearing and Rehearing En Banc

August 19,2020

Before Sykes, Chief Judge, Flaum, Easterbrook, Kanne,
Rovner, Wood, Hamilton, Barrett, Brennan, Scudder,
and St. Eve, Circuit Judges.
Per Curiam. On consideration of plaintiff-appellant's pe­
tition for rehearing and rehearing en banc, filed on June 16,

V1--

Case 3:15-cv-00831-NJR-DGW Document 117-2 Filed 08/27/20 Page 2 of 5 Page ID #977
Case:Q£^66e-26©ocurBeDtjrfl§0ltt3^71589 Filed: IQ8a!<iI9Cffi!20/2O2Qage$?<^es: 5

2

No. 18-2660

2020, a majority of the panel voted to deny rehearing. A judge
in regular active service requested a vote on the petition for
rehearing en banc. A majority of judges in regular active ser­
vice voted to deny the petition for rehearing en banc. Judges
Rovner, Wood, Hamilton, and Scudder voted to grant the pe­
tition for rehearing en banc.
Accordingly, the petition for rehearing and rehearing en
banc is DENIED.

Hamilton, Circuit Judge, joined by Rovner, Wood, and
Scudder, Circuit Judges, dissenting from denial of rehearing
en banc.
This case poses important questions about Monell liability
in the context of prison healthcare. We may assume that con­
victed prisoners deserve their punishment in prison, but the
Eighth Amendment imposes limits on that punishment. In
important ways, prisoners are dependent and vulnerable.
Their custodians may not act with deliberate indifference to­
ward serious dangers to their prisoners or to their serious
health needs. Estelle v. Gamble, 429 U.S. 97, 103 (1976). Custo­
dians who learn of such dangers or needs must respond rea­
sonably to them, whether the threat comes from violence at
the hands of other prisoners, Farmer v. Brennan, 511 U.S. 825,
844-45 (1994), hazards in the prison environment, Helling v.
McKinney, 509 U.S. 25, 33 (1993), suicide, Woodward v. Correc­
tional Medical Services, 368 F.3d 917, 929 (7th Cir. 2004), or in­
jury, illness, or pain. Estelle, 429 U.S. at 104-05. See also Ortiz
v. Jordan, 562 U.S. 180, 190 (2011) (Farmer's requirement of a
reasonable response was clearly established law).

Case 3:15-cv-00831-NJR-DGW Document 117-2 Filed 08/27/20 Page 3 of 5 Page ID #978
Case:Q^€668-263D)ocurBeDtirfi8pltt3671589 Filed:FQ&(dl9GBJ20/2O2t!tagef?3iges: 5

No. 18-2660

3

The question worth deciding en banc in this case is
whether plaintiff Hildreth has come forward with evidence
sufficient to find that defendant Wexford acted with deliber­
ate indifference to his and other prisoners' serious medical
needs by establishing unreasonable systems ("policies" in the
language of Monell) for refilling and renewing prescriptions
for needed medicines. See Monell v. Dep't of Social Services, 436
U.S. 658, 691 (1978). As the health care contractor for the
prison, Wexford of course knew of the need for timely and
reliable prescription refills and renewals. As explained in the
panel dissent, a reasonable jury could also find that Wexford
failed to take reasonable steps to meet that need. Hildreth v.
Butler, 960 F.3d 420, 435 (7th Cir. 2020) (Hamilton, }., dissent­
ing). Wexford designed and implemented systems that left
plenty of room for human error or even malice, but without
alerts or safeguards to learn of and correct inevitable prob­
lems with prescription refills and renewals. As a result, plain­
tiff Hildreth repeatedly suffered easily avoidable pain and de­
bilitation, for days or more than a week at a time, while wait­
ing for the medicine he needed for his Parkinson s disease.
The broader legal question posed here is whether the
panel majority decision is consistent with our recent en banc
decisions on Monell liability in Glisson v. Indiana Dep t of Cor­
rections, 849 F.3d 372, 382 (7th Cir. 2017) ("There is no magic
number of injuries that must occur before [defendant's] fail­
ure to act can be considered deliberately indifferent."), and
J.K.J. v. Polk County, 960 F.3d 367, 380 (7th Cir. 2020) ('"in a
narrow range of circumstances,' deliberate indifference could
be found when the violation of rights is a 'highly predictable
consequence' of a failure to provide officers what they need
to confront 'recurring' situations"), quoting Board of Comm'rs
of Bryan County v. Brown, 520 U.S. 397, 409 (1997), as well as

Case 3:15-cv-00831-NJR-DGW Document 117-2 Filed 08/27/20 Page 4 of 5 Page ID #979
Case:Ofe£668-26an)ocurBeDtjrfl@0ltt3^?’1589 Filed:IO8M9flro20/2O2tege$?^es: 5

4

No. 18-2660

whether it is consistent with Woodward v. Correctional Medical
Services, 368 F.3d 917, 929 (7th Cir. 2004) ("CMS does not get
a 'one free suicide' pass.").
In both Glisson and
we held that plaintiffs were enti­
tled to a jury trial or verdict on their Monell claims without
requiring proof of a minimum number of previous failings. In
both cases, the Monell defendant was on notice of a serious
risk of harm to certain prisoners. In Glisson it was the risk to
patients with complex disease combinations if there were no
effort to coordinate care. In
it was notice of the risk of
sexual abuse by guards. Both Glisson and J.K.J. applied two
key lessons from Farmer v. Brennan. First, knowledge of a dan­
ger or serious health need may be inferred from circumstan­
tial evidence, including the obviousness of the risk or need.
511 U.S. at 842. Second, a state actor with actual knowledge of
such a danger or need is expected to take reasonable, though
not perfect, steps to address the danger or need. Id. at 843-45.
More generally still, this case poses the question whether
courts need to channel Monell claims into separate and dis­
tinct categories depending on how the plaintiff characterizes
his claim, whether as one based on a "pattern" of violations
showing an unconstitutional custom or as one based on a
more direct challenge to an explicit policy of the governmen­
tal or corporate defendant. The panel majority erred by ad­
hering too rigidly to these categories as separate channels and
failing to engage with the policy problem and holding of Glisson . As a result, the panel majority allowed Wexford to treat
the case as only a "pattern" case, which in turn allowed Wex­
ford to defend itself by saying that it had not known—and had
no way to know—of the repeated acts of individual oversight
or malice that delayed Hildreth's medicine. That defense was

Case 3:15-cv-00831-NJR-DGW Document 117-2 Filed 08/27/20 Page 5 of 5 Page ID #980
Case:Ca&€660-26aDocuiBeDtJrfi§pltt3071589 Filed:ES85!dl9lCa9Df20/2O2€&ge^2Sges: 5

No. 18-2660

5

actually an unintentional admission that Wexford's systems
(i.e., its policies) for prescription refills and renewals were
themselves unreasonable. They were unreasonable in the face
of inevitable human error precisely because they did not in­
clude means for monitoring whether or not urgent medical
needs were being met.
The categories for Monell cases can be helpful, but we
should not let them distract us from the central issue. Regard­
less of how the claim is categorized, "The central question is
always whether an official policy, however expressed (and we
have no reason to think that the list in Monell is exclusive),
caused the constitutional deprivation." Glisson, 849 F.3d at
379.
I respectfully dissent from the denial of rehearing en banc.

Case: 18-2660

Filed: 06/16/2020

Document: 66

Pages: 63

.(

3ln tljE

Winxitb

Court of i\pprak
War il}t jsfelientff Oltrnrii

No. 18-2660
Scott Hildreth,
Plaintiff-Appellant,
v.
Kim Butler, Lori Oakley, and
Wexford Health Sources, Inc.,
Defendants-Appellees.

Appeal from the United States District Court for the
Southern District of Illinois.
No. 3:15-cv-00831-NJR-DGW — Nancy J. Rosenstengel, Chief Judge.

Argued September 19,2019 — Decided May 19,2020

Before Sykes, Hamilton, and Brennan, Circuit Judges.
Brennan, Circuit Judge. Scott Hildreth, an inmate at an Il­
linois maximum-security prison, suffers from Parkinson's
disease. He takes a prescription medication distributed by the
prison three times a day to manage his symptoms. On three
occasions Hildreth received his. medication refill a few days
late, causing him to experience withdrawal symptoms. His
symptoms also render his handwriting illegible, so Hildreth

Case: 18-2660

Document: 66

Filed: 06/16/2020

2

Pages: 63

No. 18-2660

uses a typewriter to draft documents. He requested to keep
that typewriter in his cell, which the prison denied because it
was considered contraband. Instead, the prison provided Hil­
dreth with an assistant to help him draft documents and in­
creased access to the library where he can use a typewriter.
Feeling his treatment was lacking, Hildreth sued Wexford
Health Sources, Inc. and two jail administrators under 42
U.S.C. § 1983 and the Americans with Disabilities Act
("ADA"), 42 U.S.C. §§ 12101 et seq., alleging they violated his
constitutional and statutory rights. The district court granted
summary judgment to the defendants. Because Hildreth has
not shown medication delays were a widespread practice or
custom at the prison, and he received reasonable accommo­
dations for his Parkinson's disease, we affirm the district
court's decision.
I. Background
A. Delays in Hildreth's Medication
Hildreth's Parkinson's disease causes him to lose his bal­
ance, move uncontrollably, and occasionally fall. To alleviate
these symptoms, a prison doctor prescribed Mirapex, which
Hildreth contends made a "day and night" difference. As a
specialty prescription, Mirapex was not kept in stock at the
prison; instead, it was filled by an outside pharmacy. The
prison allows Hildreth to keep a monthly supply of 90
Mirapex pills in his cell.
To refill his prescription, Hildreth must submit a refill
sticker within seven days of the end of the prescription to a
nurse, who takes it to an outside pharmacy. Hildreth usually
receives his refill when he has three to five days of medication
left.

Case: 18-2660

Document: 66

Filed: 06/16/2020

No. 18-2660

Pages: 63

3

According to Hildreth, his prescription refill was delayed
"at least three times/' causing him to experience withdrawal
symptoms within a day or two. In each instance, he informed
his gallery officer, who instructed him to tell the nurse. The
nurse often told him to wait and see if the prescription would
arrive on time. When his medication was late, Hildreth would
file a grievance. For two of the three grievances, Hildreth re­
ceived his medication within a few days of his prescription
lapsing. Wexford's medical director, Dr. Roderick Matticks,
testified the third lapse occurred in part because Hildreth
failed to attend the chronic clinic, where a Wexford physician
evaluates chronically ill inmates to assess their condition and
whether prescriptions should be continued. Dr. Matticks was
aware of these two or three instances in which Hildreth "had
some perceived delays in obtaining refills on his medica­
tions."
B. Hildreth's Request for a Typewriter
Hildreth used a typewriter instead of handwriting docu­
ments because his Parkinson's symptoms rendered them il­
legible. But the prison, a maximum-security facility, banned
the typewriter from his cell as contraband. Hildreth also
claimed the prison discriminated against him based on his
Parkinson's disease by failing to reasonably accommodate
him for his inability to write legibly.
To accommodate Hildreth's request to draft documents,
he was placed on the automatic call line to the law library
when he was 90 days away from a court deadline. A counselor
was available to help him draft documents, and he could con­
tact an officer for emergencies. Hildreth also could use a type­
writer whenever he had access to the law library. Kim Butler,
the former assistant warden and ADA coordinator, granted

Case: 18-2660

Document: 66

4

Filed: 06/16/2020

Pages: 63

No. 18-2660

Hildreth access to the law library three days per week from
8:00 a.m. to 2:00 p.m. to use the typewriter.
In the summer of 2012, Hildreth filed a grievance request­
ing a permit allowing him to possess the typewriter in his cell.
Over two years later, on October 30, 2014, Hildreth filed a
grievance stating he needed staff assistance to file grievances.
Defendant Lori Oakley, a grievance officer, reviewed the com­
plaint and found it moot because Butler had provided Hil­
dreth with increased law library access and assistance to draft
grievances. Hildreth's extra library access was later rescinded
after he was provided an ADA attendant to help write griev­
ances and pleadings. According to Hildreth, the ADA at­
tendant did not have a high school degree, could not spell,
and had sloppy handwriting. Hildreth concluded it was "not
even worth it" to use the attendant. The current ADA coordi­
nator, Angela Crain, noted if Hildreth did not want the at­
tendant, "he can simply request extra library time again in
lieu of the attendant and the ADA attendant will then be as­
signed to another inmate."
Hildreth has not missed any court deadlines due to the
prison's actions. Still, he testified he can do only a portion of
what he used to, which was to spend at least six hours a day
working on court filings with a typewriter in his cell. While
other inmates can draft handwritten court filings at any time
in their cells, Hildreth is limited to his time with the type­
writer in the library.
C. District Court Proceedings
Hildreth sued under 42 U.S.C. § 1983 alleging Wexford vi­
olated his Eighth Amendment right by intentionally not refill­
ing his Parkinson's medication on time, and under the ADA

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660

5

that defendants Butler and Oakley discriminated against him
by denying him access to a typewriter in his cell. Hildreth
sought damages for past harm as well as prospective injunc­
tive relief. While Hildreth initially sued pro se, the district
court appointed counsel for him. Through that counsel Hil­
dreth filed an amended complaint and engaged in discovery,
including deposing Wexford's Rule 30(b)(6) designee.1
Wexford moved for summary judgment on Hildreth's
§ 1983 claim. According to Wexford, Hildreth's medication
was late only three times over a period of nineteen months,
too infrequent from which to infer a widespread practice or
custom of deliberate indifference. The district court agreed
and found only three documented instances when Hildreth
experienced medication delays over a period of nineteen
months:
•

On April 8, 2014, Hildreth submitted a grievance
noting he was out of medication. The Warden de­
termined this was an emergency. A doctor saw Hil­
dreth the next day and renewed his medication for

1 Our dissenting colleague in Section I of his opinion sends out a warn­
ing "of obvious implications for discovery in the district courts" in future
cases. That section of the dissent references reports and other materials
which, the dissenting opinion admits, are outside of this case's record.
Neither the result of this case nor this majority opinion's reasoning opens
any doors to future similar litigation or expands the discovery in which
parties may engage. The scope of discovery is defined by the claims pur­
sued and the defenses raised. For the plaintiff's part, he set those parame­
ters with the help of counsel. This majority opinion does not address dis­
covery because it was not an issue in this appeal.

Case: 18-2660

6

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660
one year, but Hildreth did not receive his medica­
tion until a later date. The record does not indicate
when he received this prescription.
•

On October 25, 2014, Hildreth submitted another
grievance stating he was about to run out of his pre­
scription and had a couple days' worth left. The
warden expedited this as an emergency. The griev­
ance officer then contacted the healthcare unit,
which stated Hildreth received the medication on
October 30, 2014.

•

On November 16, 2015, Hildreth submitted a griev­
ance stating he had been out of his medication since
November 13. The Warden expedited this griev­
ance. The healthcare unit administrator advised the
grievance officer that Hildreth's prescription had
expired and the request to continue using Mirapex
was sent to the pharmacy. The grievance officer re­
sponded on November 23, 2015, finding this griev­
ance moot. The record does not indicate when he
received this prescription.

Hildreth did not present evidence that any other inmates
experienced medication delays.2 The district court found that
three delays over the period of a year and a half involving
only Hildreth did not support an inference of a widespread

2 Hildreth's other grievances did not relate to medication refill delays
or were inadmissible hearsay. For example, Hildreth's October 30, 2014
grievance complained about the need for assistance in writing grievances,
not about refill delays. And Hildreth's January 15, 2016 grievance referred
to the return of his November 16, 2015 grievance—again, not about refill
delays.

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

7

No. 18-2660

practice or custom, so summary judgment was granted to
Wexford.
Defendants Butler and Oakley also moved for summary
judgment on Hildreth's ADA claim, arguing they reasonably
accommodated his disability. The district court considered
whether Hildreth, given his disability, was able to participate
in the activities in question with or without reasonable accom­
modations. The district court found he was able to use the law
library and access a typewriter three times per week for six
hours a day from August 2013 to July 2015. He also could con­
tact an officer in emergency situations, and a counselor was
available to assist. The increased library access was rescinded
only after Hildreth was assigned a personal ADA attendant.
Nevertheless, Hildreth could have requested extra library
time in lieu of using the attendant. Although Hildreth com­
plained the attendant was inadequate, Hildreth did not miss
any court deadlines.
Considering the prison's security concerns and the fact
that Hildreth was able to successfully draft documents, the
district court found the prison's accommodations reasonable
as a matter of law and granted summary judgment to Butler
and Oakley on this claim. Hildreth appealed.
II. Discussion
Summary judgment is proper when the admissible evi­
dence shows no genuine dispute as to any material fact and
the moving party is entitled to judgment as a matter of law.
See Fed. R. Civ. P. 56; Barnes v. City of Centralia, 943 F.3d 826,
830 (7th Cir. 2019). We review de novo the district court's

Case: 18-2660

Document: 66

8

Filed: 06/16/2020

Pages: 63

No. 18-2660

grant of summary judgment and construe all facts and rea­
sonable inferences in Hildreth's favor. See Barnes, 943 F.3d at
828.
A. Section 1983 Claim
We start with Hildreth's Eighth Amendment claim against
Wexford, which he brought under § 1983's policy-or-custom
framework of Monell v. NYC Soc. Serv., 436 U.S. 658 (1978).3
Deliberate indifference to a prisoner's serious medical needs
may constitute cruel and unusual punishment under the
Eighth Amendment. Campbell v. Kallas, 936 F.3d 536, 544-45
(7th Cir. 2019) (citing Estelle v. Gamble, 429 U.S. 97, 103 (1976)).
To prevail on such a claim, a plaintiff must show his condition
was objectively, sufficiently serious and that the prison offi­
cials manifested deliberate indifference to his serious medical
needs. Id. at 545. To be sure, negligence, gross negligence, or
even recklessness as the term is used in tort cases is not
enough—the prison officials' state of mind must rise to the
level of deliberate indifference. Burton v. Downey, 805 F.3d
776, 785 (7th Cir. 2015) (holding alleged two-day delay

3 In the alternative, Hildreth asks this court to apply a respondeat supe­
rior theory of liability to private corporations, like Wexford. This argument
is new on appeal and thus forfeited. See Hahn v. Walsh, 762 F.3d 617, 639
(7th Cir. 2014) (holding "plaintiffs have waived the issue of [a private com­
pany's] respondeat superior liability [under § 1983] because they failed to
raise it before the district court"). While courts, including ours, have at
times used the terms waiver and forfeiture interchangeably, this court re­
cently clarified that forfeiture occurs where, as here, a party inadvertently
fails to raise an argument in the district court. United States v. Flores, 929
F.3d 443, 447 (7th Cir. 2019) ("Waiver occurs when a party intentionally
relinquishes a known right and forfeiture arises when a party inadvert­
ently fails to raise an argument in the district court.").

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

9

providing medication to detainee was not deliberate indiffer­
ence).
Because Wexford is a "private corporation that has con­
tracted to provide essential government services [it] is subject
[under § 1983] to at least the same rules that apply to public
entities." Glisson v. Ind. Dep't ofCorr., 849 F.3d 372, 378-79 (7th
Cir. 2017) (en banc). Hildreth does not point to an official un­
constitutional policy; instead, he claims Wexford has a cus­
tom of delaying prescriptions.4
To support a § 1983 claim on this theory, Hildreth must
show: (1) defendants' practice in refilling prescriptions vio­
lated his constitutional rights; and (2) that practice was "so
pervasive that acquiescence on the part of policymakers was
apparent and amounted to a policy decision." Phelan v. Cook
Cty., 463 F.3d 773, 789, 790 (7th Cir. 2006). This requires "more
than a showing of one or two missteps." Id. There must be
"systemic and gross deficiencies." Id. Even if such deficiencies
exist, Hildreth must show policymakers knew of the deficien­
cies and failed to correct them, manifesting deliberate indif­
ference. Id.
We put the first requirement to the side because Hildreth
has not provided enough evidence on the second to show a
practice of delaying prescriptions was widespread, which is

<n
4 Our dissenting colleague labels Hildreth's allegations a "policy"
claim, although the dissent admits Hildreth uses the term "custom" in his
briefing, and Hildreth states "[a] corporate 'custom' is at issue here." Ap­
pellant's Br. at 31.

Case: 18-2660

Document: 66

Filed: 06/16/2020

10

Pages: 63

No. 18-2660

the "pivotal requirement" of his § 1983 claim.5 Grieveson v.
Anderson, 538 F.3d 763, 774 (7th Cir. 2008) (holding 4 incidents
over about 11 months involving only plaintiff was insufficient
to show a widespread practice or custom).
Hildreth's claim fails on two axes: first, his allegations of
delays are insufficiently widespread, as they involve only
him; and second, the alleged delays are insufficiently numer­
ous, as he has substantiated only three.
1. Incidents involving only Hildreth
Hildreth provides evidence of delays in only his personal
prescriptions. While it is not "impossible" for a plaintiff to
demonstrate a widespread practice or custom with evidence
limited to personal experience, "it is necessarily more difficult
... because 'what is needed is evidence that there is a true mu­
nicipal policy at issue, not a random event.'" Id. (quoting
Calhoun v. Ramsey, 408 F.3d 375, 380 (7th Cir. 2005)); see
Winkler v. Madison Cty., 893 F.3d 877, 902 (6th Cir. 2018) (af­
firming summary judgment in county's favor when plaintiff
"discusses only [her son's] treatment, and therefore cannot es­
tablish that the County had a custom of deliberate indiffer­
ence to the serious healthcare needs of all the inmates");
Denham v. Corizon Health, Inc., 675 F. App'x 935, 944 (11th Cir.
2017) (holding plaintiff failed to show a custom of providing
inadequate medical care when plaintiff's claims rest only on
one inmate's experiences); Payne v. Servier Cty., 681 F. App'x
443, 446-47 (6th Cir. 2017) (holding "five instances of alleged
5 Because there was not enough evidence of a custom, we also need
not address whether Wexford acted with deliberate indifference. See
Grieveson v. Anderson, 538 F.3d 763, 774 (7th Cir. 2008).

Case: 18-2660

Document: 66

Filed: 06/16/2020

No. 18-2660

Pages: 63

11

misconduct, over three months, all involving the plaintiff
himself is not enough to prove a custom"); Culbertson v. Lykos,
790 F.3d 608, 629 (5th Cir. 2015) (holding allegations "limited
to the events surrounding the plaintiffs" are insufficient to es­
tablish a widespread practice or custom). This is not a case
where the incidents are so numerous to satisfy the "more dif­
ficult" task of proving a custom with only evidence of per­
sonal experience. Grieveson, 538 F.3d at 774.
2. Insufficient Number of Delays
Hildreth alleges his prescription lapsed "at least three
times." And the district court found three grievances for
Hildreth's lapsed medication on April 8, 2014, October 25,
2014, and November 16,2015. Other than these three personal
experiences, Hildreth has not provided evidence that any
other inmates experienced prescription delays.
Three instances of prescription delays over nineteen
months involving solely one inmate fail to qualify as a wide­
spread unconstitutional practice so well-settled that it consti­
tutes a custom or usage with the force of law. Although this
court has not adopted any "bright-line rules" defining a wide­
spread practice or custom, we have acknowledged that the
frequency of conduct necessary to impose Monell liability
must be more than three. Thomas v. Cook Cty. Sheriff's Dep't,
604 F.3d 293, 303 (7th Cir. 2010) (noting "there is no clear con­
sensus as to how frequently such conduct must occur to
impose Monell liability, 'except that it must be more than one
instance,' or even three") (citations omitted); see also, e.g., Doe
v. Vigo Cty., 905 F.3d 1038, 1045 (7th Cir. 2018) (holding a
"handful of incidents of misconduct," including three inci­
dents of sexual contact, two incidents of inappropriate com­
ments, and two allegations of harassment over two decades

Case: 18-2660

12

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660

"is not enough to establish a custom or practice"); Estate of
Moreland v. Dieter, 395 F.3d 747, 760 (7th Cir. 2005) (holding
three incidents of improper pepper-spraying over a threeyear period did not amount to a widespread custom); Gable v.
City of Chicago, 296 F.3d 531, 538 (7th Cir. 2002) (holding three
incidents of erroneously denying to vehicle owners that their
vehicles were in the impoundment lot over a four-year period
did not amount to a persistent and widespread practice).
We agree with the district court that this case is compara­
ble to Grieveson v. Anderson, 538 F.3d 763 (7th Cir. 2008). In
Grieveson, on four occasions over a period of about eleven
months, jail guards gave the plaintiff his entire prescription at
once, exposing him to the risk of theft by other inmates. Those
four instances were insufficient to establish a widespread
practice or custom. 538 F.3d at 774. As Grieveson explained,
"evidence of four incidents that [plaintiff] alone experienced"
is "simply not enough to foster a genuine issue of material fact
that the practice was widespread." Id. at 774-75. Accordingly,
granting summary judgment in Wexford's favor was proper.
Our dissenting colleague attempts to distinguish
Grieveson. Grieveson complained once, while Hildreth com­
plained three times, and Grieveson did not allege widespread
non-compliance with official policy. But a single complaint of
four incidents over eleven months is not materially different
than three complaints, each of a single incident, over nineteen
months. And like Grieveson, Hildreth did not allege a wide­
spread failure. Hildreth's allegations concern only himself.
He sued on his own behalf and not for others. Indeed, the
term "widespread" is absent from Hildreth's amended com­
plaint, which was filed with the assistance of counsel.

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

13

Our reasoning and conclusion here agree with other
circuits that have considered the frequency of instances to es­
tablish a widespread practice or custom. Those cases have
concluded that four or more incidents over varying periods —
sometimes less than nineteen months —are insufficient to
qualify as a widespread practice or custom.6
6 Evidence of four incidents fell "far short" of proving a widespread
practice or custom. See Jones v. Town ofE. Haven, 691 F.3d 72, 85 (2d Cir.
2012) (holding four incidents over approximately four years "fell far
short" of showing a custom); Giaccio v. City of New York, 308 F. App'x 470,
472 (2d Cir. 2009) (holding "only four examples" of misconduct fell "far
short" of establishing a widespread practice).
Evidence of five incidents involving only the plaintiff was not enough
to prove a widespread practice or custom, even when those incidents oc­
curred in a short three-month period. See Payne v. Servier Cty., 681 F. App'x
443, 446-47 (6th Cir. 2017) (holding "five instances of alleged misconduct,
over three months, all involving the plaintiff himself is not enough to
prove a custom" and that "plaintiff cannot establish a custom solely by
pointing to the facts of his own case").
Evidence of more than five incidents was insufficient to prove a wide­
spread practice or custom over a variety of time frames. See, e.g., RuizBueno v. Scott, 639 F. App'x 354, 364 (6th Cir. 2016) (holding 10 incidents
in the past 18 years did not demonstrate pattern of constitutional viola­
tions); Peterson v. City of Fort Worth, 588 F.3d 838, 851 (5th Cir. 2009) (hold­
ing 27 complaints of excessive force over 3 years were insufficient to
establish a pattern); Pineda v. City of Houston, 291 F.3d 325, 329 (5th Cir.
2002) (holding 11 incidents of warrantless entry did not support an uncon­
stitutional pattern), 124 F. Supp. 2d 1057,1070 (S.D. Tex. 2000) (illustrating
a four-year period for the incidents of warrantless entry); Mettler v.
Whitledge, 165 F.3d 1197, 1204-05 (8th Cir. 1999) (holding 16 incidents
ranging between August 1982 and January 1994 were insufficient to prove
a custom); Silva v. Worden, 130 F.3d 26, 32 (1st Cir. 1997) (finding insuffi­
cient evidence of a custom when witnesses "could only remember a few
instances over the last twenty years"); Carter v. District of Columbia, 795
F.2d 116, 123 (D.C. Cir. 1986) (holding six prior incidents of alleged

Case: 18-2660

Document: 66

14

Filed: 06/16/2020

Pages: 63

No. 18-2660
3. Other Alleged Incidents

Hildreth cites other incidents which he says qualify as part
of a widespread practice or custom. But due to failures of
proof and forfeiture, those incidents cannot be considered.
Hildreth argues the district court erred in excluding evidence
-inmate's affidavit. Michael McGowan attested he overheard
conversations between Hildreth and people whom McGowan- v
believed to be Wexford nurses. The affidavit describes an Oc­
tober 2015 incident, when a nurse refused to accept Hildreth's
medication refill slip because of Hildreth's demeanor. The afiidavit also describes an undated incident when a nurse said
"check on the status" of Hildreth's med­
:*
ication and.that he needed to wait for it to arrive.
t

Hildreth submitted McGowan's affidavit in response to
Wexford's motion for summary judgment. The district court
excluded the affidavit as inadmissible hearsay. We review a
district court's evidentiary decision for an abuse ot discretion?
See Bordelon v. Bd. ofEduc. of the City of Chi., 811 F.3d 984, 991
(7th Cir. 20Tb )T~Hildreth argues the district court abused its
discretion by excluding this affidavit because the statements
in McGowan's affidavits were made by an agent of a party

misconduct over approximately two years did not establish pattern of ex­
cessive force); cf. Bordanaro v. McLeod, 871 F.2d 1151,1156 (1st Cir. 1989)
(finding a widespread practice or custom when doors were broken down
by officers without a warrant with a sledge hammer provided by the city
and the sergeant was present at "about 20 or 30" or "50, 60" instances over
his 24-year tenure as a police officer).

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

15

opponent under Federal Rule of Evidence 801(d'H'2'H'Dl and
are not hearsay.
We conclude the district court did not abuse its discretion
by not considering the McGowan affidavit because there was
insufficient evidence to establish that Wexford employed the
nurses referenced in the affidavit. Hildreth failed to show that
the nurses who allegedly made these statements were em­
ployed by Wexford, and he failed to confirm that the state­
ments were made within the scope of employment. Id. at 992.
Even if a Wexford nurse did make these comments, "not eve­
rything that relates to one's job falls within the scope of one's
agency or employment." Williams v. Pharmacia, Inc., 137 F.3d
944, 950 (7th Cir. 1998). While the "precise reach of Rule
801(d)(2)(D) is sometimes difficult to discern," the inquiry is
easy where, as here, the affidavit does not establish an em­
ployment relationship and does not establish the statements
were made within the scope of such relationship. Id.
Even if the district court had abused its discretion and im­
properly excluded these two other incidents, Hildreth's claim
still fails because the "practice" of medication delay was not
widespread. Importantly, neither of these incidents describe
a delay in the delivery of Hildreth's prescription. The first re­
lates to a nurse refusing to accept the medication refill slip due
to Hildreth's demeanor—not an allegation concerning a medigation delay. The second undated incident refers to a nurse
saying she would not "check on the status" of Hildreth's med­
ication—again, not a medication delay. Without knowing
when the prescription was due to be delivered, a delay cannot
be presumed. So neither of these incidents can support Hil­
dreth's claim that Wexford has an unconstitutional practice or
custom of delaying prescriptions.

Case: 18-2660

16

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660

On appeal, Hildreth employs a kitchen-sink strategy by
arguing there were three more delays (beyond the five dis­
cussed so far) for a total of eight delays that the district court
failed to consider. These three further instances were not ar­
gued in the district court, so we cannot consider them. See,
e.g., Scheidler v. Indiana, 914 F.3d 535, 540, 544 (7th Cir. 2019)
(holding plaintiff forfeited her argument by not developing it
in the district court); Flournoy v. Schomig, 418 F. App'x 528,531
(7th Cir. 2011) (refusing to consider new evidence of deliber­
ate indifference under § 1983 when plaintiff did not raise the
issue before the district court); see also United States v. Flores,
929 F.3d 443, 447 (7th Cir. 2019) (explaining forfeiture arises
when a party inadvertently fails to raise an argument in the
district court).
Even if we were to review these three additional allega­
tions on appeal, they are vague, they lack sufficient connec­
tion to Wexford, and at least two occurred sporadically sev­
eral years before the other alleged incidents. Specifically, two
incidents are dated November 3, 2009 and January 28, 2011
and were included in the "cumulative counseling summary"
to Hildreth's summary judgment response on the issue of ex­
haustion of administrative remedies. Hildreth failed to dis­
cuss any of these incidents in his summary judgment
response on the issue of inadequate care, the issue under con­
"t
sideration. The third incident is an undated occurrence when
r'-yF *
his medication lapsed because it was not renewed, which was
also not discussed in his summary judgment response on the
issue of inadequate care. The district court did not err in not
considering them, as it is not the court's job to "scour the rec­
ord in search of evidence to defeat a motion for summary ^
judgment." Harney v. Speedway SuperAmerica, LLC, 526 F.3d
1099,1104 (7th Cir. 2008).

i^P1

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

17

Even if the hearsay, forfeiture, and relevance rules were
put to the side, and we considered all eight incidents which
occurred over a period of six years, courts have concluded
that more than eight incidents over a shorter time period does
not constitute a "widespread" practice or custom. See, e.g.,
Pittman ex rel Hamilton v. Cty. ofMadison, 746 F.3d 766, 780 (7th
Cir. 2014) (holding 36 suicide attempts and 3 suicides in a
5-year period was not enough evidence of a widespread inad­
equate suicide policy); Peterson v. City of Fort Worth, 588 F.3d
838, 851 (5th Cir. 2009) (holding 27 complaints of excessive
force over 3 years were insufficient to establish a pattern);
Pineda v. City of Houston, 291 F.3d 325, 329 (5th Cir. 2002)
(holding 11 incidents of warrantless entry over a 4-year pe­
riod did not support an unconstitutional pattern).
The dissent states we adopt a "bright-line rule" as to the
number of incidents to establish an unconstitutional custom
under Monell.7 But rather than set a number, we have consid­
ered and applied the precedents of this and other courts to
7 The dissent asserts this opinion "is at odds with our approach to
Monell, which focuses broadly on indicia of municipal or corporate re­
sponsibility rather than just the number of incidents." For this proposition
the dissent cites Dixon v. County of Cook, 819 F.3d 343 (7th Cir. 2016), and
Daniel v. Cook County, 833 F.3d 728 (7th Cir. 2016), but neither case is avail­
ing here. Dixon included an institutional claim—the implementation of a
medical records policy—from which the dissent's quote emanates. 819
F.3d at 348-49. In contrast, Hildreth brought an individual claim. And the
claim in Daniel concerned whether Cook County Jail's scheduling and rec­
ord keeping resulted in medical care falling below constitutional stand­
ards as a matter of official policy, custom, or practice. 833 F.3d at 734. As
Daniel stated, " [t]o prove an official policy, custom, or practice within the
meaning of Monell, Daniel must show more than the deficiencies specific
to his own experience, of course." 833 F.3d at 734. Again, Hildreth's claim
is limited to his own experience.

Case: 18-2660

Document: 66

18

Filed: 06/16/2020

Pages: 63

No. 18-2660

these facts, nothing less and nothing more. Hildreth has not
shown five incidents of prescription refill delay, much less
eight. And under that law three delays over nineteen months
for a single individual does not establish a widespread cus­
tom or practice of delaying medication. So we affirm the dis­
trict court's grant of summary judgment to Wexford on
Hildreth's § 1983 claim.
B. ADA Claim
We turn next to Hildreth's statutory claim under the
ADA.8 Under the Act, "no qualified individual with a disabil­
ity shall, by reason of such disability, be excluded from par­
ticipation in or be denied the benefits of the services,
programs, or activities of a public entity, or be subjected to
discrimination by any such entity." 42 U.S.C. § 12132. To es­
tablish a violation, a plaintiff must show "he is a qualified in­
dividual with a disability, that he was denied the benefits of
the services, programs, or activities of a public entity or oth­
erwise subjected to discrimination by such an entity, and that
the denial or discrimination was by reason of his disability."
Wagoner v. Lemmon, 778 F.3d 586, 592 (7th Cir. 2015) (internal
quotations omitted). The ADA imposes a duty to provide rea­
sonable accommodations to disabled persons. 42 U.S.C.
§ 12182(b)(2)(A)(ii) ("[Discrimination includes ... a failure to
8 This claim raises a "thorny question of sovereign immunity." ]aros v.
III. Dep't of Corr., 684 F.3d 667, 671-72 (7th Cir. 2012); see also Morris v.
Kingston, 368 F. App'x 686, 689 (7th Cir. 2010) (observing the Supreme
Court "left open the question whether the ADA could validly abrogate
sovereign immunity for non-constitutional violations"). We need not ad­
dress this question, though, because we conclude the defendants' accom­
modations were reasonable as a matter of law.

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

19

make reasonable modifications in policies, practices, or pro­
cedures."); see AM. by Holzmueller v. III. High Sch. Ass'n, 881
F.3d 587, 594 (7th Cir. 2018). To receive compensatory
damages, Hildreth must show deliberate indifference, which
occurs when defendants "knew that harm to a federally pro­
tected right was substantially likely and ... failed to act on that
likelihood." Lacy v. Cook Cty., 897 F.3d 847, 862 (7th Cir. 2018)
(quoting Liese v. Indian River Cty. Hosp. D/s/., 701 F.3d 334, 344
(7th Cir. 2012)).
The key question here is whether Hildreth, given his disa­
bility, was able to draft his legal documents, with or without
reasonable accommodations from the prison. See Love v.
Westville Corr. Ctr., 103 F.3d 558,560 (7th Cir. 1996). As a result
of the Parkinson's disease and its effect on his handwriting,
Hildreth requested a typewriter in his cell to draft court doc­
uments and correspondence. Because a typewriter is prohib­
ited in a cell, the prison officials instead provided him with an
assistant to help him draft documents. They also increased his
access to the library to eighteen hours per week where he
could use a typewriter. Hildreth's extra library access was
withdrawn only when he received an assistant. While not the
around-the-clock, easy access Hildreth wants to word pro­
cessing, or the well-trained writer whom he might like, Hil­
dreth successfully drafted legal documents and never missed
a court deadline. Further, he could have asked for more li­
brary time, but the record shows no such request.
The question is not whether other modifications could
have been made, such as those Hildreth seeks, but whether
the accommodations made were reasonable. We conclude
they were. The defendants' accommodations allowed
Hildreth sufficient time and access to a typewriter to draft and

Case: 18-2660

Document: 66

Filed: 06/16/2020

20

Pages: 63

No. 18-2660

file documents while taking into account the prison's reason­
able security concerns with contraband. Love, 103 F.3d at 561
(noting the ADA's "reasonableness requirement must be
judged in light of the overall institutional requirements. Secu­
rity concerns, safety concerns, and administrative exigencies
would all be important considerations to take into account"
(citation omitted)).
Even if Butler and Oakley failed to make these reasonable
accommodations, Hildreth would still not be entitled to dam­
ages because he has not shown deliberate indifference.
Hildreth admits he has been moved to a different area of the
prison where he may now possess a typewriter in his cell. This
renders moot his claim for prospective injunctive relief. See
Simic v. City of Chicago, 851 F.3d 734, 738 (7th Cir. 2017) (noting
for a plaintiff to have standing for prospective injunctive
relief, he "must face a 'real and immediate' threat of future
injury as opposed to a threat that is merely 'conjectural or hy­
pothetical"' (quoting City of Los Angeles v. Lyons, 461 U.S. 95,
102 (1983)). So Hildreth can now seek only compensatory
damages, provided he shows deliberate indifference. See Lacy,
897 F.3d at 862 (7th Cir. 2018) (agreeing with the majority of
circuits that "deliberate indifference [is] the proper standard
for obtaining compensatory damages" under the ADA). But
Hildreth never argued Butler or Oakley were deliberately in­
different and thus cannot recover compensatory damages.
Accordingly, we affirm the summary judgment in defend­
ants' favor on the ADA claim.
III. Conclusion
The district court concluded correctly that Hildreth did
not show a widespread practice or custom of the defendant

f>cT

r

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

21

delaying medication, and that prison officials reasonably ac­
commodated his Parkinson's disease. So we Affirm the dis­
trict court's grant of summary judgment in defendants' fa­
vor.9

...

9 Hildreth moved to supplement the record on appeal with an October
10, 2018 letter from the Illinois Supreme Court, which stated the Illinois
Supreme Court was returning his petition for leave to appeal because it
was "mostly illegible" and requested that Hildreth type or rewrite his pe­
tition. Because this letter was not submitted (or in existence) during the
district court proceedings, it is not permitted under Federal Rule of Ap­
pellate Procedure 10, so we deny this motion.

APPENDIX
C
»>

Po

Case: 18-2660

Document: 66

22

Filed: 06/16/2020

Pages: 63

No. 18-2660

HAMILTON,, Grczh t Judge, dissenting. Plaintiff Hildreth has
offered sufficient evidence that Wexford knew of his serious
health needs—which required reliable, timely refills of his.
Parkinson's medication—and acted unreasonably in response
to those needs. Wexford established prescription refill and renewal systems, i.e., policies, that did not include warnings
and back-ups to correct inevitable and serious mistakes.
That's enough to show deliberate indifference under Farmer
v. Brennan, 511 U.S. 825, 843-44 (1994), and Glisson v. Indiana
Dey't of Corrections, 849 F.3d 372, 382 (7th Cir. 2017) (en banc).
I respectfully dissent.
I. Discovery in Future Cases
Before explaining where the majority opinion errs, how­
ever, ^jmus^i^iH^it_d^e_opinion(sjobviou5hhplicationsfor
discovery m tire district couxts^wextoid should be careful
what it asks for. Its4gtvyfers have won this case, bu,t on theories and argurhents that invite—indeed, virtually7require^
much broader, more intrusive, and more expensive discovery
in similar ca^es, Plaintiffs like Hild retlvwiil, need to pursue
discovery„intoJhe~medical.;Care:pf_p.thef_prisoners and even
into Wexford's personnel records. The need for district courts
to recruit counsel in such cases will be even more mmpplling
ConsiderJhe,grounds for Wexford's yictory. The first is
the_simplest. Important evidence is" deemed inadmissible'
hearsay because plaintiff does not have1 evidence that the
speakers, prison ntfrses whose employment shifted back and
forthJbetween Wexford
and the
Illinois Department of Cor\
---------- ^--------------- 1------^
_
rections, were employees of Wexford on the days they made
thejdisputed statements—Thdfs incorrect as a matter of evi­
dence law in two ways: these were~not'"statements"~'offered
for their truth, and even if they had been, a person can be an

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

23

agent of a party under Federal Rule of Evidence 801 (d)(2)(D)
without-being anemployee. Nevertheless,.other plaintiffs \yill
need.to. prepare Jo meet, such, arguments in other cases. The
only. fair_w.ay_toJet,them.meet_them/Jf Wexford~or similar
prison healthTcare.comp.aniesjyill.npt stipulate, is to let plaintiffs -haye. access.to.personnel records. Given Wexford's argu­
ments and the majority opinion's reasoning here, it would be
an abuse of discretion to deny such discovery in a similar case.
Second, Wexford argues and the majority opinion agrees
that plaintiff does not offer evidence of sufficiently wide­
spread problems with timely refills of critical, life-changing
prescriptions at Menard or other prisons-wher&Wexford has
un
■W why I disagree. But if a sirftilar
plaintiff must prove that the system in fact fails more fre-\^
quentlv. and not just for him, his demands for broad discov-^2
ery into other inmates' experiences with Wexford andjts-refill
system should be undeniable^.—-—"""
MoxeQver,-ii-.go.od^deaLo£such..eyide,nce appears to be discoverable. Other federal lawsuits provide sources df~gnrh-ev-^
)
:esc:
during timps relevant- herp Spp. e.g., First Annual Report-of''
Monitor-Pabld~StgwaTtrMPrat~47, Rasho v. Walker, No. 07-cv1298 (C.D. Ill. May 22, 2017) ("Medication orders often expired and the offender may or may_nQt.continue receiving his
or her medication ... . At Menard, psychotropic medication)
orders were allowed to expire, and often staff did not_correct
the problem until an inmate had already missed a wefek or
two of medication."); Final Report of the CourtAppointed Expert, at 23, Uppert v. Godinez^NoT l:10-cv-4603 (N.D. Ill. Dec.
2014) ("In the course of our reviews we noted multiple in-

Case: 18-2660

24

Document: 66

Filed: 06/16/2020

Pages: 63

No, 18-2660

stances in which patients experienced medication discontinu­
ity for a variety of reasons, yet this went unrecognized and
_ therefore unaddressed by^the-treatuTg~cliniaans7~Faft~of- the
problem seems io-bedysfunctional medical record keeping^)
... ."); Barrow v. Wexford Health-SourcesTlnc.i No. 3:14-cv-800,
2017. WL 784562, at *4 (S.D. Ill. .Mar. 1, 2017)_ (plaintiff claimed
he did not receive medication prescribed by Wexford- physician at Menard in 2014; summary judgment ;granted:for Wex­
ford but denied for physicianp
There is evidence that these conditions have~persisted -for
years,, with ,expert findings,almast~perfectly~mirrormg Hildreth's experiences.-See Report of the 2nd Court Appointed
Expert, at 83, Lippert vTGoclmez, Ndri:10-cv-4603 (N.D.J11. Oct.
2018) ("We found manyexairiples of patients whose ordered
.. - medications were never provided, were’ delayed starting, and_
were stopped because the patient had riot been seen by a pro­
vider to renew medication. Record reviews indicated that ap­
pointments for chronic care are not scheduled' td taKe"place
prior to expiration of chronic disease medication Orders.").
The expert: reports from .the Lippert litigation excoriate. Wex­
ford for its, oversight of Illinois prison health care—including-^:
the, delivery. of medicatiori—and the first report was pub-_
lished.iiiJ2eceriiber2014lb_ejweguplairiHff HildietH's^secorid"
and third grievances.
~---These reports are not in this record, were riot raised in
these briefs, and are not appropriate subjects for judicial no­
tice. But they may be available iri future cases. They would
face hearsay objections if offered to prove the matters as­
serted. See Wilson v. Wexford Health Sources, Inc., 932 F.3d 513,
522 (7th Cir, 2019) (holding district court did not abuse its discretion excluding the Lippert Report when offered as proof

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

25

that Wexford provided substandard care). But these reports
would be admissible to show corporate knowledge of Wexford's policy failings and of the risks that inmates faced. Dandocuments from other jail-condition case were "inadmissible
hearsay to the extent they are offered to prove the, truth of the
statements they contain" but "may be admissible to.show that_..
the defendants were on notice of their contents"! .
In addition, plaintiffs in similar cases should be able to.
\
find ways to put these reports (or testimony from their au­
thors) into evidence for the truth of the matters asserted toj
establish a more extensive rgcord of Wexford's gimilar-fail;s with othgT-prifioners/AncT of course^evidence about
WexforcFscon tracts and the financial incentives it facesin de­
li ypring, nr not delivering, health care to Illinois prisoners
would also be relevant in evaluating the company's policies
and whether they amount to deliberate indifference to serious
health risks. Given the majority opinion's reasoning here,
these additional paths of discovery should be available and_
would potentially be compensable by Wexford in the end. See
42 U.S.C..§_1988. Given the majority opinion's reasoning, it~'
would be an abuse of discretion to deny similar plaintiffs ac­
cess to these lines of discovery to Satisfy the standard applied
in this case.
II. Wexfordls-Rrescription Policies and the Lapses in Hildreth's
Prescription .
Returning to this case and this record, plaintiff Hildreth
has come forward with evidence that defendant Wexford's
policies for renewing and refilling prescriptions reflect delib­
erate indifference to the serious medical needs of Hildreth
himself and other prisoners who depend on reliable refills of

. -r

Case: 18-2660

26

Document: 66

Filed: .06/16/2020

Pages: 63

No. 18-2660

prescriptions for medicines that are not kept on-site at the
prison. In reviewing a grant of summary judgment, we view
the facts in the light most reasonably! avorableloplaintiff as
the non-moving party. Dixon v. County of Cook, 819 F.3d 343,
346(7th Cir. 2016)!
~ ~~~~
“
Hildreth suffers from Parkinson's disease, a neurological
disease that causes reduced levels of dopamine in the brain,
causing in turn tremors and problems in movement and bal­
ance, among other serious symptoms. Parkinson's has no
known cure, but medication can help control the symptoms
by mimicking-the effects of dopamine... . —
______
Hildreth needs- a drug called Mirapex to manage his
symptoms. Without Mirapex, his Parkinson's symptoms re-\
tumwithiri a day or two; and he suffers from poor balance, \
stiffness, shaking,-fevers,^ memory-problems,vand^freezing^epT-;':
isodes. This leaves him "immobile" and "balled up in bed." !
Any lapse in medication causes pain and puts him atnsk of
A
injury.
During one such lapse, he lost his balance and fell in j
the shower. For Hildreth, the difference between having med- j
icati^n.ahd.hot haying it is "nightand day:"
i—- •
As an inmate at the Menard Correctional Center, Hildreth
must rely oh Wexford-— a private health-care, contractor—ancT
the Illinois Department of Corrections (IDOC) to providehim
with health care, including his Parkinson's medication.1 Both
. 1 Since the late 1970s, states have increasingly contracted with private
corporations to provide health-care services in prisons. The Pew Charita­
ble Trusts, Prison Health Care: Cost and Quality 11 (2017). As of 2015,
twenty-eight states either contracted out most healthrcare delivery ser­
vices or split responsibility between , state, employees and contractors.
Many states, including Illinois, have a capitated payment model, which
means that they pay contractors a fixed per-patient rate for care. Id. at 98.

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

27

Wexford and IDOC play a role in providing health care, and
IDOC employs some health-care workers. Wexford, however,
has primary responsibility for overseeing prisoner treatment.
including_.prescribing._medIcailQn'IaridZ&etfingprescription
policies. The_;site_me.dieal director at Menard, a Wexford emplo.y_e.e/-w:as supposed to provide oversight. During the events
of this lawsuit, however, this key position was first vacant,
then filled temporarily, occupied briefly by one doctor, and
then by_another doctor who soon left the position because he
was not- wor-king- the-req.uir.ecL4Q..hours per week and "would
leave early." ..... ........
Wexford treats the Mirapex that Hildreth needs as a "nonformularv medication." This means that the drug is not kept
in stock at the prison but is shipped as needed from an outside
provider, Boswell Pharmacy Services. Wexford's nonformulary medication refill policy requires a sequence of actions to
get the medicine to an inmate. Hildreth receives one month's
supply, of Mirapex at a time. When he receives the pack of
pills, he also receives a sticker that he must turn in to a nurse
at most seven days before he runs out. After he returns the
sticker to a nurse, Wexford is supposed to send the sticker to
Boswell. Boswell is then supposed to ship a refill to Menard,
and the nursing staff is supposed to deliver the refill to Hildreth. Nurses can be employed by either Wexford or IDOC.

Illinois prisons have among the lowest per-inmate staffing and spending
levels in the country. In 2015, Illinois had the second-lowest per-inmate
staffing and the eighth-lowest per-inmate health-care spending. Its spend­
ing of $3,619 per year was 37 percent below the national median. Id. at 8,
20.

Case: 18-2660

Document: 66

Filed: 06/16/2020

28

Pages: 63

No. 18-2660

In addition to the refill policy, Wexford has a prescription'
renewal policy for inmates like Hildreth with chronic ill­
nesses. Such inmates are supposed to be signed up automati­
cally for clinic visits at least every six months. These visits
serve a key function in coordinating care for chronically ill pa­
tients and making sure their medical needs are met. At these
clinics, patients are seen by a Wexford physician or nurse
practitioneFwho will then write any necessary prescriptions,
which will last between six months and one year.
.

' s

#

/

/
/
f

These policies look good on paper, but these are human
systems and people make mistakes. Hildreth did not regik- :
larly receive passes for the chronic clinic and did not go every
six months. Instead, he was seen by doctors at irregular inter­
vals and-was.sometimes just told that his prescription was be- - ing renewed "automatically." At least one time, Hildreth did . .
not recgivehis medication on time because His prescription
had lapsed. Another time,, a Wexford nurse refused to accept.
Hildreth's renewal sticker because "she did not like Scott Hil­
dreth's demeanor,;"2
•*••
. hr effect Wexford, policyTelied on what a manufacturer
would call "just-in-time" supply control. When a manufac­
turer relies on such a~"Sv5tem7-4t-know.s .it.must monitor progress closely so that mistakes don't'shut down'the assembly
. line: Wheh the just-in-time system is used to provide critical
medicine,! the stakes are even higher. The need for a policy to
catch andlcorrect mistakes before they cause harm is greater'
Without such.elements, in the Wexford policy, plaintiff was
left without medication he needed to control his Parkinson's

2 The majority opinion treats this statement as inadmissible. Ante at
15.1 disagree for reasons explained below.

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

. 29

symptoms for days and sometimes more than a week at a
time. As applied, then, the formal policies did not reliably
snpplyJJildrpth with his Parkinson's medicationTThe record
contains evidence of at least three medication lapses over a
period of nineteen months. In each instance, Hildreth did the
only things he could to bring the lapse to the attention of those
responsible for his care—speaking to the nurses on duty and
filing grievances.________ ____
On April 8. 2014, Hildreth filed his first grievance in the
record about a medication lapse: "I am out of my Parkinsons
meds (AGAIN) ... I have serious mobility problems ... I've
been telling C/Os [correctional officers] and nurses for days I
did not get refill[.] I turned in sticker on time[.) Been without/or
days." (Emphasis added). The next day, Hildreth's prescription was renewed, indicating that the lapse took place because
...his.prescription had expired and had not'been renewed on
, timp. The record does not indicate when Hildreth received his
refill, but he likely would have gone at least another couple of
days-beeause~of~the turnaround time from Boswell.
On October~25,-20.1.4,_he_filed_another grievance: "I have
gone thru this before?! I don't know why I bother with your
grievance] syst[em]? I am about to run out of my [.] Mirapex
for Parkison's ~I've fold'the nurses for "a couple days now."
~ HildretH~feceiv~ed fHe'medicafiohbhOctober 30, and Hildreth
said that this meant he had a lapse of two or three days. Hildreth-hab-become so accustomed to medication delays that he
had_started.preemptively telling nurses about lapses. When
he was told to "wait and see" if the medication came in, he
would preemptively file a grievance to help ensure that he
.. had only a minimal lapse.

Case: 18-2660

Document: 66

Filed: 06/16/2020

30

Pages: 63

No. 18-2660

On November 16, 2015, Hildreth filed yet another grievance regarding the same problem: "Been without Parkinsons
meds again! Since Friday 13th. This is why I filed law suit."
He said that he had "told nurses" about the situation, but to
"no avail as usual." This grievance was not reviewed until a
full week later, on November 23. Upon review, the Healthcare
Unit Administrator—an IDOC employee—noted that the
"non-formulary for his meds have expired. The request to
continue use was sent into the pharmacy. We are waiting to
hear back." During this incident, Hildreth went without his
medication for at least ten days. In reviewing the grant of
summary judgment, we must assume that such a long lapse
was exceptionally painful and dangerous for Hildreth. We
must also assume that Hildreth did his part by complying
with Wexford's prescription refill and renewal policies.
III. Amlysis-^-Xhe_Eiphth Amendment andJAonell

\

It's worth remembering why modem federal courts devote so much attention to health care in prisons. "An inmate
must rely on prison authorities to treat his medical needs;|if
the-authorities fail to do so. those needs will not be met. In tne
worst_cases,_such afailure may actually produce physical 'torhi-m-nr a lingpring dpatb'
In less serious .cases, denial of
medical-care may result in pain and suffering which no one
~
1
1
.
1
'
■ —- -^i
suggests would serve any penological purphse-The infliction
rary standards of decency ... Estelle v. Gamble, 429.U.S. 97,
103 (1976) (citations omitted). That's why deliberate indifference to inmates' serious medical needs violates the Eighth
Amendment's prohibition on cruel and unusual punishment.
DanieLuAEank.County. 833 F.3d 728, 733 (7th Cir. 2016),. citing

Case: 18-2660

Document: 66

Filed: .06/16/2020

Pages: 63

31

No. 18-2660

Estelle, 429 U.S. at 104. A plaintiff shows deliberate indiffer- ,
ence by establishing, that those responsible,for.inmate health
know that an inmate_faces a "substantial risk of serious harm"
and disregard that risk by "failing to take reasonable
measures .to abate it." Farmer v. Brennan, 511 U.S. 825, 847
(1994).
For claims against municipal governments under 42
U.S.C. § 1983, we apply the familiar Monell standard: re­
spondeat superior liability does not apply, and the plaintiff
must show instead that the constitutional violation was
caused by a municipal policy or a custom or practice so per­
vasive as to reflect municipal policy. Monell v. Dep't of Social
Services, 436 U.S. 658, 691 (1978). The Supreme Court has not
applied the Monell standard to private corporations that act
under color of state law, like prison and jail health-care pro­
viders. Our precedents have applied Monell to such private
corporations, though that doctrine has been questioned
within the court and the academy. See Shields v. Illinois Dep't
of Corrections. 746 F.3d 782, 789-90 (7th.Cir. 2014). !
In this case, the correct focus is on Wexford's systems (i.e.,
its policies) for prescription refills and renewals. Monell liabil­
ity may apply even in the absence of individual liability
where the institutional policies themselves show- deliberate
indifference to inmates' serious medical needs. Gljssoh v. Indi­
ana Dep’t of Corrections, 849 F.3d 372, 378 (7th Cir. 2017) (en
banc) (contractor chose not to provide for coordinated care for
prisoners with multiple, complex illnesses); see also Daniel,
833 F.3d at 733-34J'"in dividual defendants can defend themselves by shifting blame to other individuals or to problems
with the/system/ particularly where no one individual seems
to.be responsible for an inmate's overall care").
i

Case: 18-2660

32

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660

This doctrinal niche is often relevant in prison health-care
cases, particularly where health care is delivered by a combination.of,government employees and a private contractor .like
Wexford. The combination diffuses^ responsibility between
government and contractor and among many individuals. Inmates can suffer because of health-care providers' lack of pol­
icy, systematic failures to follow official policy, pr obvious
gaps in policy. E.g., Glisson, 849 F.3d at 378; Daniel, 833 F.3d at
735; Thomas v. Cook County Sheriff's Dep't, 604 F.3d 293, 303
(7th Cir. 2010). In such cases, it may be that no facially uncon­
stitutional policy tells employees to take actions that violate
someone's constitutional rights. Instead, the government or
its contractor adopts or tolerates practices that predictably
lead to constitutional harms.
/$$>- A...Evidentmiy Dispute.
......
I need to address briefly the erroneous exclusion of evi­
dence that helps demonstrate why Wexford's system needs to
have warning systems and back-ups. In opposing summary
judgment, Hildreth offered an affidavit from another inmate,
Michael McGowan, who testified that he overheard two relevant conversations. In October 2015, Susan Kirk—a nurse
who McGowan believed worked for Wexford—refused to ac­
cept Hildreth's medication refill sticker, "indicating she did _,
not like Scott Hildreth's demeanor," In a second encounter,
Angie Walters—another nurse who McGowan believed
worked for Wexford—refused to check on the status of Hildreth's medication refill when he reported that he had run
out. The district court excluded McGowan's testimony about
these statements as hearsay, and the majority opinion upholds those rulings.

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

-.33

As a matter of elementary evidence law, this is just clearly-^
/ wrpng,..Hifdreth did not offer the affidaWfto provejjiafdyhat
AtTHTnur.se,s said was true. He offered theaSldavit to prove
their actions. One nurse refused to accept plaintiffs refill
sticker. The other refused to check on the status of his refill
when he had already run out. The conversations were not
hearsay at all but instead verbal acts—refusals—falling com­
pletely outside the definition of hearsay in Federal Rule of Evidence 801(c): an out-of-court "statement" offered "to prove
. the truth of the matter asserted in the statement." See Carter
v. Douma. 796 F.3d 726, 735 (7th Cir. 2015) (informant request
for drugs was not hearsay because it was a verbal act);
Schindler v. Seiler. 474 F.3d 1.008, 1010 (7th Cir. 2007) (verbal
acts are not hearsay because they "are not offered for their
truth"); see generally 30B Wright & Beilin,,Federal Practice &
Procedure, Evidence § 6722 at 66 (2017). The affidavit was of-_
fered as evidence that the system (read, policy) that Wexford
had designed could fail and did fail plaintiff because of eminently human failings like impatience and perhaps spite. The
affidavit offered admissible evidence to oppose summary
judgment.3
‘ 3 The parties have skipped the "statement" issue and debated whether
Federal Rule of Evidence 801(d)(2)(D) should apply. It excludes from the
definition of hearsay statements by an opposing "party's agent or em­
ployee on a matter within the scope of that relationship and while it ex­
isted." As noted above, the debate on this issue shows the need for broader
discovery into Wexford's or similar contractors' personnel files to deter­
mine who employed the nurses at the relevant times. The only evidence is
that the affiant said that he believed they were Wexford employees. Wex­
ford obviously has records that could settle that issue, but it has not come
forward with them. Future plaintiffs facing similar gamesmanship will
have to obtain personnel records to prepare to meet such arguments. At a
more fundamental level, however, employment is not the issue. Agency is

Case: 18-2660

34

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660
B. Unreasonable Response to Danger of Inevitable Mistakes

Hildreth has presented sufficient evidence of a Monell pol-.
icy or custom for his claim to survive. A jury could conclude
that "the failure to establish adequate systems" for providing
essential medication "was so pervasive that acquiescence on —
the part1 of policymakers was apparent and amounted to a
policy decision." Daniel, 833 F.3d at 734, citing Dixonvs County
nf~Cnnk. 819'F.3H\343.'.348~7th Cir. 201j)._Hildrethhas identi­
fied a policy—or rather, a network of policies.and key policy
gaps—that can form the basis of Wexford's EightfuA-mendment liability. TheJssue is not exactly how often the policy
failed Hildreth._The_issue_is_whje.ther„tKe..system.established
by Wexford policymakers reflected deliberate indifference’to
the inevitability of human mistakes.
' :r'.;Ai,prisoner-assertingia^deliberate:i;indifferenceJ-claimimust?'“ ■’
show that the defendant had actualknowledge of the danger
or. serious condition the prisoner faced, and that the defendant_iailed-to.~take-reasonable-S.teps in the face of the risk.
Farmer v. Brennan, 511 U.S. 825, 843-44 (1994); Ortiz v. Jordan,
562 U.S. 180, 190 (2011) (reinforcing Farmer's reasonableness
requirement); LaBrec v. Walker, 948 F.3d 836, 841 (7th Cir.
the issue. See,,e.g., Mister v.. Northeastern Illinois Commuter R.R. Corp., 571
F.3d 696, 698 (7th Cir. 2009); United States v. Swan, 486 F.3d 260, 264-65
(7th Cir,2007); Young v. James Green Mgmt., Inc., 327 F.3d 616, 622 (7th Cir.
2003). The majority, opinion further speculates that the statements.may not
have been within the scope of the nurses' employment (or agency). Ante
'at 15. Even Wexford didn't try to make this argument, and it's hard to
imagine how these statements or actions by nurses.responsible for refilling
prescriptions and dispensing drugs could fall outside the scope of their
. agency or employment. See Thomas,' 604 F.3d at 309-10 (prison nurse's
statement that an ill inmate was "just dope sick" was "not hearsay" under
’.Rule 801(d)(2)(D)).
'
;

:.

■

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

35

2020); Glisson, 849 F.3d at 381. The Supreme Court explained
in Farmer that a plaintiff can prove actual knowledge with cir­
cumstantial evidence, of course, and that the very obviousness of the danger can..,support an inference of actual
knowledge. 511 U.S. at 842: see also LaBrec. 948 F.3d at 841
(citing Farmer); Petties v. Carter, 836 F.3d 722, 729 (7th Cir.
2016) (en banc) ("If a risk from a particular course of medical
treatment (or lack thereof) is obvious enough,''alactfind'^can
infer that a prison official knew about it and disregarded it.").
_ Hildreth has offered evidence to satisfy this demanding
knowledge of Hildreth's Parkinson's disease, his prescrip­
tion,, and-theneed to ensure a steady supply of the medicine.
.....Wexford-surclv had_actual knowledge that some prisoners
would 6avp similarly urgent needs for critical prescriptions
noC_available___on-site at the prison.^Given,.that ^ actual
know1edge.of.se,rlo.us-medical needs. Wexford had a constitu­
tional duty to take reasonable steps to avoid or minimize'the
risk.,oLlapses in midicafionrin other words, Wexford had a
constitutional .duty, to Taut_in place a reasonably reliable~system for renewing and refilling such critical non-formulary
drugs-.and.to..monitoxJhl.^lTOTtoanye;pf'thaFsystem.
A jury- ronld-easi.1yL.find.. that Wex ford's_sys tern was not
reasonably calculated to be reliable because the system had
no warning channel and back-up mechanisms by which it
. could fix mistakes without unnecessary suffering. Wexford's
system is not required to be perfect and fail-safe. But for a sys­
tem so critical to health—and one with many possible points
of failure—it lacked warnings to alert Wexford to inevitable
mistakes or oversights. This not only prevented Wexford

Case: 18-2660

36

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660

from catching mistakes before patients suffered but appar­
ently prevented Wexford from learning about even repeated
failures. Such an unreasonable "conscious decision not to take
action" in the face of a serious medical risk is akin to the deci­
sion of the defendant in Glisson to forgo a protocol for coordi­
nated care to chronically ill inmates. 849 F.3d at 381. Where
there is an obvious risk created by a health-care policy gap —
like coordinated care in Glisson or medication refill oversight
here—a plaintiff need not show some minimum number of
injuries to prevail. Id. at 382, citing Woodward v. Correctional
Medical Services, 368 F.3d 917, 929 (7th Cir. 2004) ("CMS does
not get a 'one free suicide' pass.").
)\)v'

Compare Hildreth's situation to that of a hospital patient
on a ventilator that is keeping the patient alive. The machine
-.runs,on.electricity. Electrical, power., will he,interrupted:fromtime to time by storms and equipment failures. Machines like
ventilators occasionally.break down. Any reasonable hospital
must anticipate the possibility ■ of: those interruptions . and
breakdowns, and it must have alerts and a back-up system in
place. Similarly here, Wexford may be deemed to have actual
knowledge’ of both the obvious possibility,, even the inevita^
bility, of mistakes or lapses in its renewal and refill; systems
and of the serious consequences for patients if those were not
corrected. Wexford thug had a constitutional duty to take rea­
sonable steps—warnings and back-up systems—to mitigate
i.the effects of inevitable mistakes and oversights.

;

In Hildreth's case, Wexford's system for providing medicationjed to a series of serious delays in providing him with
his medication.-^ at least three times in nineteen months. Each
time this happened, we must assume, Hildreth did every-

Case: 18-2660

Document: 66

Filed: 06/16/2020

No. 18-2660

Pages: 63

37

thing he could_tp„a^oid the problem and then to make Wex-^
ford, aware of it. He told'the-nurses_and filed formal griev­
ances. In these grievances, he said that this was_an ongoing
problem and that the nurses were not responsive to his needs.
The longest-lapseJn.medication—at least ten days—occurred
after he.had. recently submitted two grievances related to
other-lapses.------------ ;----------------------------Wexford argues that Hildreth's, grievances cannot be used
to infer that it knew about the systemic failure of its medica­
tion policies and that this precludes liability:
,A

Wexford is not involved in the grievance pro­
cess, and would not know of the contents of a
grievance unless an IDOC employee notifies
Wexford about it. Even then, that individual
would have been a member of the onsite
healthcare staff, not necessarily a policymaker.
As such, Wexford policymakers had no reason
to know that any alleged issue existed. ; 1
Brief for Appellee Wexford at 21. This argument has things
exactly, backwards: Wexford's lack of involvement in the
grievance, process makes it more culpable_and strengthens Hil­
dreth's claim. Humans make-mistakes. In implementing sys­
tems known to be critical to life, health, and safety, a company
like Wexford must allow for such mistakes and take reasona­
ble steps to provide.wamings and back-up systems.^Federal
courts do, not.and.should not design the specifics. As noted,
though/ the Eighth Amendment requires reasonable re­
sponses^ known risks where prisoners cannot protect their
own health and safety. Wexford's admission that it lacked any
policy to learn about inmates' complaints supports the con­
clusion that its prescription policies created an unacceptable

.

Case: 18-2660

38

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660

risk of harm resulting from this form of deliberate indiffer­
ence to Hildreth's serious medical needs.
Daniel v. Cook County addressed this point: "If a grievance
system is part of a jail's or prison's system for communicating
and responding to health care requests, and if the system fails
in a way that causes a deprivation of needed health care, then
the problem with the grievance system may be an important
part of the plaintiff's case for deliberate indifference to his
health care needs." 833.F-.3d at 737. We have also said, of
course, that "the dangers of delayed responses to medical re­
quests are readily apparent." Thomas, 604 F.3d at 304. In the
face of such danger, it is unreasonable for a medical policy­
maker to cut itself off .from important feedback about failures
or lapses in its policies.
' -^Dividing-Responsibility^ between .private- ;COntr actors - and
state, agencies can. increase these risks. In such cases, the law
should and does provide incentives for actors to take reason­
able steps to mitigate known dangers. The law should not do
what the majority opinion's reasoning does here: reward di­
vided responsibility and deliberate ignorance by those who
control prisoners' only access to health care. Hildreth's griev­
ances give the impression of a person in pain, screaming into
a void.--Wexford-ignored.Hildreth's.grievances, seemingly by
design. And when Hildreth used .the only.other.avenue available—communication with nurses—he was.told only to "wait
and see" if the refill would come. On this record, we should
, reverse summary judgment for Wexford.
~TT . fi
" “
1---------------- - “

Case: 18-2660

Document: 66

Filed: 06/16/2020

No. 18-2660

Pages: 63

39

C. The Majority Opinion's Approach to Custom
The majority opinion adopts a highly restricted approach
to establishing a Monell custom that is at odds with our prec­
edent. The majority looks only to the raw number of alleged
failures and the time period over which they took place. Ante
/aOT-lSr It views-the-broader,policy decisions and context
I surrounding the violations as immaterial. This approaclrdF—
!
i vorces the legal doctrine from its purpose of identifying those
! cases in which a government or corpora
uses-and
J failsjoaddress predictable failures to provide needed medi­
cal care. After acknowledging that we have adopted no
"bright-line rules" for establishing a Monell custom, the ma­
jority opinion adopts one by saying that the numbeFtJfprossibly unconstitutional incidents "must be more than three." /
Ante at IT
'
’
"
■—
~-J

.?

—

___ — •

*•

There are at least two problems with the approach. First,
Hildreth does not present the kind of pure custom case where
institutional culpability is inferred solely from repeated em­
ployee misconduct and the question is whether the corpora­
tion can be held liable for tolerating them. While Hildreth
uses the term "custom" in his briefing—presumably because
he asks us to infer something from the repeated medication
lapses he experienced—his theory of Monell liability implicates both official policies and unofficial customs. Hildreth \
. specificatly^ointsTo-Wexford's-admissibff that it is "not in- j
volved in the grievance process" as evidence of its deliberate ^
indifference. He asks us to infer from Wexford's medication \\
refill policy, its prescription renewal policy, a pattern of noncompliance with each of those policies, a pattern of medication lapses, and—importantly—the utter failure of Wexford
1
:
to provide a functioning pathway to fix these problems, that

Case: 18-2660

40

Document: 66

Filed: 06/16/2020

Pages: 63

No. 18-2660

Wexford tolerated "systematic and gross deficiencies" in its
process for providing inmates with medication. Dixon, 819
F.3d at.348. And as described above, the lack of a policy for
reporting and correcting failures—undoubtedly a failing at­
tributable to Wexford itself rather than a rogue employee—
should be decisive.
Second, even when addressing what could be called pure
custom, cases, we have never held that some minimum num­
ber of incidents is needed to establish municipal liability. Ra­
ther; the question is one of corporate knowledge.and.respon-.
^sibility, as is always the case under Monellj, "[Mjunicipal lia­
bility can ... be demonstrated indirectly 'by showing a series
of bad acts and inviting the court to infer from them that the
■ 1
policymaking level of government was bound to have noticed-''
- what ^as;. gpipg_oq.;-"^^
...
tate^opRaUdclCVrCo'unty of Wood, 226 F.3d 525, 530 (7th Cir.
2000). The majority opinion's per se rule is at odds with our
approach to Monell, which focuses broadly on indicia of mu­
nicipal or corporate responsibility rather than just the number
of incidents. E.gf Dixon, 819 F.iJcTat 348 ("[WJe look to see if a
trier of fact could find systemic and gross deficiencies in staff­
ing, facilities, equipment, or procedures in a detention cen­
ter's medical care system.") (internal quotation marks omittedf'baniel/83^¥3dTat73^(\'[X]rt inmate can meet this burA
—-demby offering 'competent evidence tending to show a gen-1
r
eral pattern of repeated behavior (i.e., something greater than |
\
1 a mere isolated event).'"), quoting Davis v. Carter, 452 F:3d
i
686, 694 (7th Cir. 2006). As we said in Woodward, a prison
t
^
health-care company "does not get a 'one free suicide' pass/'
\ 368 F.3d at 929.
•

Case: 18-2660

No. 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

41

Grieveson v. Anderson, 538 F.3d 763 (7th Cir. 2008), which
the majority opinion treats as controlling, is easily distin­
guishable. An inmate alleged that the jail maintained a cus­
tomary practice of failing to distribute inmate prescriptions
properly after four instances in which his entire prescription
was distributed at once and then stolen by other inmates. Id.
at 774. We held that these four incidents were insufficient to
establish a custom. Grieveson differs in two critical ways from
this case: the inmate complained to the prison officials only
once, and the inmate did not allege widespread noncompli­
ance with official policy. Here, by contrast, Hildreth filed at
least three grievances and made even more frequent com­
plaints to nurses where Wexford's system failed, and nothing
happened. And he described frequent noncompliance with
Wexford's refill and renewal policies. Wexford's just-in-time
refill system left little room for mistakes, and. such a system
demands warnings and back-ups where health and safety-are
I at stake, \jjre rep'eated and foreseeable mistakes in refilling
Hildreth's prescription and the failure to respond to his com­
plaints make for a much stronger case of systemic deficiencies
Vhere than in Grieveson.__________ ______________ :______—
1 would reverse and remand for trial, and I would add a
strong suggestion that Hildreth be permitted to pursue addi­
tional discovery to expand the evidence of deliberate indiffer­
ence.

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

CERTIFICATE OF COMPLIANCE
This petition for rehearing or rehearing en banc complies with the type-volume
limit of Federal Rules of Appellate Procedure 35(b)(2)(A) and 40(b)(1) because, ex­
cluding parts of the petition exempted by Federal Rule of Appellate Procedure
32(f), it contains 3,720 words. This petition also amplies with the typeface requirements of Federal Rule of Appellate Procedure 32(a)(5) and/Seventh Circuit Rule
32(b), as well as the typestyle requirements of FederalT^me of Appellate Procedure
32(a)(6), because it was prepared in a proportionally spaced typeface in 12-point
Palatino Linotype using Microsoft Word 20M.
June 16, 2020

s/iZenjamin G. Minegar
Benjamin G. Minegar

s
~

I

Case 3:15-cv-00831-NJR-DGW Document 98 Filed 07/17/18 Page 1 of 2 Page ID #830

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
SCOTT HILDRETH,

)
)
)
)

Plaintiff,

)

vs.

Case No. 3:15-CV-00831-NJR-DGW

)

KIM BUTLER, NEAL R. SCHWARZ,
LORI OAKLEY, MARVIN
BOCHANTIN, C/O DEJOHN, C/O
MOUI, DR RAHREM, LT TORIVILLE,
SGT BENETT, QO CHANDLER
JACQUELINE LASHBROOK, DAWN
MARCINKOWSKA, DAVID L.
DWIGHT, WEXFORD HEALTH,
JOHN DOE and JANE DOE,
Defendants.

)
)
)

)
)

)
)
)
)
)
)

TUDGMENT IN A CIVIL ACTION
DECISION BY THE COURT.
IT IS ORDERED AND ADJUDGED that, pursuant to the Court's Order dated
November 4, 2016 (Doc. 49), Defendants Neal Schwarz and Jacqueline Lashbrook were
DISMISSED without prejudice.
IT IS FURTHER ORDERED AND ADJUDGED that, pursuant to the Amended
Complaint dated April 13, 2016 (Doc. 26), Defendants C/O DeJohn, C/O Moui, Dr.
Rahrem, Lt. Toriville, Sgt. Benett and C/O Chandler were DISMISSED without
prejudice.
IT IS FURTHER ORDERED AND ADJUDGED that, pursuant to the Court's
Order dated June 16, 2017 (Doc. 65), Defendants Marvin Bochantin, Dawn
Marcinkowska, and David L. Dwight were DISMISSED without prejudice.
Page 1 of 2

RSA30

Case 3:15-cv-00831-NJR-DGW Document 98 Filed 07/17/18 Page 2 of 2 Page ID #831

IT IS FURTHER ORDERED AND ADJUDGED that, pursuant to the Court's
Order dated July 17, 2018 (Doc. 97), Defendants Jane Doe and Lieutenant John Doe were
DISMISSED without prejudice. Judgment is entered in favor of Defendants Kim
Butler, Lori Oakley, and Wexford Health Sources, Inc. on the remaining claims. Plaintiff
Scott Hildreth shall recover nothing, and this action is DISMISSED with prejudice.
DATED: July 17, 2018
JUSTINE FLANAGAN, Acting Clerk
By: s/ Deana Brinkley
Deputy Clerk
APPROVED:
NANCY J. ROSENSTENGEL
United States District Judge

Page 2 of 2

RSA31

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 1 of 18 Page ID #812
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
SCOTT HILDRETH,

)
)
)
)

Plaintiff,
vs.

)

KIM BUTLER, LORI OAKLEY, and
WEXFORD HEALTH SOURCES, INC.,

Case No. 3:15-CV-00831-NJR-DGW

)
)

)
)
)

Defendants.

MEMORANDUM AND ORDER
ROSENSTENGEL, District Judge:
This matter comes before the Court on the Report and Recommendation of
Magistrate Judge Donald G. Wilkerson, which recommends denying the Motion for
Summary Judgment filed by Defendant Wexford Health Sources, Inc.1 ("Wexford")
(Doc. 79) and the Motion for Summary Judgment filed by Defendants Kim Butler and Lori
Oakley (Doc. 82). For the following reasons, the Court respectfully rejects the Report and
Recommendation and grants both motions.
Introduction
Plaintiff Scott Hildreth, an inmate of the Illinois Department of Corrections ("IDOC")
currently incarcerated at Menard Correctional Center, filed this civil rights lawsuit pursuant
to 42 U.S.C. § 1983 complaining Defendants violated his constitutional rights. Hildreth is
proceeding on two claims. First, Hildreth claims Defendant Butler, the former Assistant
Warden and Americans with Disabilities Act ("ADA") Coordinator at Menard, and
1 The Clerk's Office is DIRECTED to correct Defendant's name on the docket sheet. Furthermore,
pursuant to the Court's Order of June 16, 2017, Defendants Marvin Bochantin, Dawn Marcinkowska, and
David Dwight were dismissed without prejudice (Doc. 65). Finally, Defendants Jane Doe and Lieutenant
John Doe were never identified. Accordingly, the Clerk's Office is DIRECTED to terminate these
Defendants as parties to this matter.
Page 1 of 18

RSA12

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 2 of 18 Page ID #813

Defendant Oakley, a Grievance Officer, discriminated against him and denied him
reasonable accommodations for his Parkinson's disease. Specifically, he claims Defendants
denied him access to a typewriter or word processor and/or access to the prison law library,
in violation of the ADA (Doc. 26). Second, Hildreth claims Defendant Wexford maintains
unconstitutional policies, practices, and customs of intentionally not refilling its stock of
Parkinson's medicine such that Hildreth's prescriptions can be refilled in a timely manner
(Id.). Hildreth alleges his prescription medication has run out multiple times and has not
been refilled within a reasonable amount of time, thus causing him to suffer relapses and
withdrawal symptoms (Doc. 26). Hildreth claims this practice is motivated by Wexford's
deliberate indifference to his and other inmates' medical needs, which are placed at a lower
priority than Wexford's business interests and profits (Id.).

Background
Hildreth was diagnosed with Parkinson's disease in 1996 (Doc. 83-1, p. 18). The
disease causes Hildreth to lose his balance, slide out of his chair, and move uncontrollably
(Id., pp. 21-22). It also affects his handwriting and causes him to "shuffle" when walking or
to freeze up and fall over (Id.).
Because his handwriting is shaky, Hildreth purchased a typewriter to keep in his cell
in order to write court documents and other correspondence. In 2012, the prison confiscated
his typewriter because it was considered contraband (Id., pp. 38-39). Hildreth filed a
grievance in July 2012 and sought a permit allowing him to possess the typewriter and/or a
word processor (Id., p. 143). Grievance Officer Oakley found the grievance moot, stating the
issue was discussed with the prison's ADA Coordinators, Assistant Warden Butler,
Assistant A. Grott, the Healthcare Unit, and the Warden, and it was determined that the

Page 2 of 18

RSA13

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 3 of 18 Page ID #814

typewriter would not be returned to Hildreth (Id., pp. 40, 50, 143). He would, however, be
placed on the automatic call line to the law library when he was 90 days out from a court
deadline, he could contact an officer in emergency situations, and a counselor would be
making increased contact to assist him (Id.).
Hildreth testified that the counselor did make increased contact with him, and
Defendant Butler gave him three days a week in the law library from 8 a.m. to 2 p.m. to use
the typewriter (Id., p. 42). On October 30, 2014, Hildreth filed another grievance stating that
he needed staff assistance to file grievances. In March 2015, Grievance Officer Oakley
reviewed the grievance and found it moot, as Hildreth, at that point, was already receiving
increased law library access and assistance with his grievances when necessary (Doc. 46-9).
On July 9, 2015, Hildreth's extra library access was rescinded because he was
assigned an ADA attendant to help him write grievances and pleadings (Doc. 83-3). Hildreth
went back to attending the law library about once every other week (Doc. 83-1, pp. 45-49).
According to Hildreth, the attendant did not have his GED, couldn't spell, and his writing
was nearly as sloppy as Hildreth's. Using the attendant is "not even worth it." (Id., p. 85).
The current ADA Coordinator, Angela Crain, attested that if Hildreth does not want to use
the ADA attendant, "he can simply request extra library time again in lieu of the attendant
and the ADA attendant will then be assigned to another inmate." (Doc. 83-3).
Hildreth testified that while he has not missed any court deadlines and has been able
to file motions and complaints without a typewriter, he is only able to do a portion of what
he used to do, which was spend at least six hours a day working on court filings in his cell
(Id., pp. 52-53). Meanwhile, other inmates are given time and supplies in their cells to draft
documents, which he cannot do (Id., pp. 50-51).

Page 3 of 18

RSA14

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 4 of 18 Page ID #815

Hildreth stated that he sued Defendant Butler because he thinks she improperly
denied him access to a typewriter (Id., p. 117). He sued Defendant Oakley because she
mooted his grievances, and "[sjhe's the only avenue I got to raise the issues . . . And I think
she hasn't done her job to help me find avenues to —to correct it." (Id., p. 119).
Hildreth's Prescription Medication
To alleviate the symptoms of Hildreth's Parkinson's disease, a prison doctor
prescribed Mirapex. According to Hildreth, Mirapex has made a "day and night" difference
for him (Id., pp. 89, 92). Hildreth takes Mirapex three times a day and receives his pills
monthly, meaning he receives 90 pills at a time (Id. pp. 89-90).
Hildreth is supposed to see the doctor every six months to have his prescription
renewed, but he testified that he thought the doctor sometimes automatically renewed it (Id.,
p. 94). To refill his monthly prescription, Hildreth must turn in the refill sticker within seven
days of the end of the prescription to a nurse or a medic, who then takes it to the pharmacy
(Id., p. 90). Hildreth usually receives his refill when he has three to five days of medication
left (Id., p. 91). He testified that if the medicine is not there by then, he knows he's "got
problems." (Id.). He would tell his gallery officer, who would then instruct him to tell the
nurse on duty; however, the nurses would tell him to wait and see if it comes in time (Id.). If
the Mirapex did not come in time, then he would file a grievance (Id.). Hildreth testified he
would begin experiencing withdrawal symptoms the second day, "if not late in the first
day," without his medication (Id., pp. 95-96).
According to Hildreth, his Mirapex prescription lapsed "at least three times" (Id., pp.
93,103). The longest amount of time he went without Mirapex was at least ten days. (Id., p.
95). Without his medication, Hildreth experiences hot flashes, poor balance, stiffness, ticks

Page 4 of 18

RSA15

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 5 of 18 Page ID #816
and shakiness, and his gait becomes shuffled. He has freezing episodes, where his body
can't move, so he stays in his cell and eats food from the commissary rather than walking to
chow for meals (hi, p. 98).
The record contains three grievances2 in which Hildreth complained of a lapse in
receiving his Parkinson's medication. Hildreth testified that he wrote a grievance dated
April 8, 2014, stating he was out of his Parkinson's medication again. The grievance was
determined by the Warden to be an emergency (Doc. 83-1, p. 72). The Warden responded
that the Healthcare Unit said Hildreth was seen on the doctor call line on April 9, 2014, and
that his medication was renewed for one year (Id.). Hildreth explained that while his
prescription may have been renewed on that date, he would not have received it that day.
Rather, it would have been ordered on April 9 to be received later (Id., p. 73).
Hildreth wrote a second grievance regarding his Mirapex prescription on October 25,
2014 (Id., p. 76). Within this grievance, Hildreth stated he was about to run out of his
prescription for Mirapex, which can cause adverse side effects (Doc. 46-6). Hildreth testified
he probably had two or three days' worth of medication left when he wrote the grievance
(Doc. 83-1, p. 100). The Warden expedited this grievance as an emergency (Doc. 46-6). The
Grievance Officer then contacted the Healthcare Unit, which stated that Hildreth received
his Mirapex on October 30, 2014 (Doc. 83-1, p. 76).
Hildreth's third grievance is dated November 16, 2015 (Doc. 43-4). Hildreth wrote
that he had been out of his Parkinson's medication since November 13 (Id.). The Warden
determined that this grievance would be handled on an expedited basis, and the Grievance
Officer responded on November 23, 2015, finding the grievance moot (Doc. 43-5). The

2 Hildreth testified he wrote a grievance each time he was out of Iris medicine (Id., p. 94).
Page 5 of 18

RSA16

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 6 of 18 Page ID #817

Healthcare Unit Administrator had advised the Grievance Officer that Hildreth's
non-formulary prescription had expired and the request to continue using Mirapex was sent
to the pharmacy (Id.). The Healthcare Unit was "waiting to hear back." (Id.). The Warden
concurred in the decision on November 25, 2015 (Id.). The record is silent as to when
Hildreth received his prescription.
Hildreth also supplied the Court with an affidavit from Michael McGowan, a fellow
inmate at Menard who lived in the same gallery as Hildreth. McGowan attests that he
overheard conversations between Hildreth and who he believed to be Wexford nurses on
two occasions (Doc. 84-3). The contents of these conversations are inadmissible hearsay,
however, and may not be relied upon to defeat summary judgment. See Fed. R. Evid. 802;
Fed. R. ClV. P. 56(c)(4); Maddox v. Jones, 370 F. App'x 716,720 (7th Cir. 2010) (citing Haywood v.
Lucent Technologies, Inc., 323 F.3d 524, 533 (7th Cir. 2003) (inadmissible hearsay cannot be
used to overcome a properly supported motion for summary judgment). Thus, the Court
will not consider this affidavit.
Prescription Refill Process
Wexford contracts with the IDOC to provide certain medical services to IDOC prison
facilities including Menard (Doc. 34, ^ 21). Dr. Roderick Matticks, Wexford's Lead Regional
Medical Director in Illinois, testified that Wexford's site medical director would oversee the
treatment of Hildreth's Parkinson's disease, including his prescription medication, while
Wexford's nursing staff would oversee delivery of the medication (Id., pp. 4-5). Boswell
Pharmacy, which is not owned by Wexford, is responsible for filling prescriptions written
for inmates at Menard (Doc. 80-2, p. 8).
Dr. Matticks further testified to the prescription medication process at Menard. Once

Page 6 of 18

RSA17

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 7 of 18 Page ID #818

a Wexford doctor writes a prescription, a nurse reviews the order, signs off on it, and
submits it to the pharmacy department (Id., pp. 6-7). The pharmacy technician then sends
the prescription to Boswell to have the medication filled (Id., p. 7). Dr. Matticks explained the
prescription is generally transmitted to Boswell within a few hours so that it can be filled
and returned to Menard the following day to up to two days later (Id., p. 13). Once Boswell
returns the medication to the Healthcare Unit, it is generally dispensed to the patient within
a day by either Wexford or IDOC-employed nurses (Id., pp. 7,17-18). When a patient needs a
refill, he is instructed to turn in the refill sticker within seven days of the end of the
prescription packet to a nurse or the Healthcare Unit (Id., p. 19). The patient is responsible
for turning in his own refill sticker (Id.).
Dr. Matticks also explained the difference between formulary and non-formulary
prescriptions (Id., p. 9). While formulary medications are available without any prior
approval, non-formulary medications require a prescription along with an explanation of
what medications have been tried in the past, the doses tried, how long they were tried, and
why the non-formulary medicine is necessary versus medication that is currently on the
formulary (Id., pp. 9-10). That information is sent to Boswell, where clinical pharmacists
review the information and have the option of approving the medication at that time or
sending the prescription back for further information and clarification (Id., p. 10). Mirapex
was a non-formulary medication, meaning it was not kept in stock at Menard but rather had
to be filled by Boswell (Id., pp. 10-11).
As to Hildreth specifically, Dr. Matticks testified that he was aware of two or three
instances where Hildreth "had some perceived delays in obtaining refills on his medications,
and those have occurred around — a couple of those that I recall occurred around the time

Page 7 of 18

RSA18

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 8 of 18 Page ID #819

that the chronic clinics would have occurred . . . They were about six months apart. And it
appears he did not make it to the chronic clinic ... and so did not see the physician. So at that
time, you know ... that's when the time lapse could have occurred." (Id., pp. 14-15).
The Report and Recommendation
Defendants Butler and Oakley filed a motion for summary judgment as to Hildreth's
ADA claim, in which they argue that Hildreth's constitutional rights were not violated when
reasonable accommodations were provided to him. Defendants also argue they are entitled
to qualified immunity and that Defendant Butler lacks any personal involvement after April
2014 when she became Warden and was no longer the ADA coordinator.
Wexford also filed a motion for summary judgment as to Hildreth's delayed medical
attention claim, in which it makes three primary arguments. First, Wexford argues
Hildreth's Monell claim must fail because he has not shown any Wexford employee was
deliberately indifferent to his serious medical needs. In other words, because there is no
underlying deliberate indifference claim against a Wexford employee, Hildreth cannot
demonstrate that any Wexford custom or policy caused the individual to act with deliberate
indifference. Second, Wexford argues that there is no evidence its official policies are
unconstitutional and were the motivating force behind any alleged constitutional violation.
Finally, Wexford argues Hildreth has not put forth sufficient evidence to infer a widespread
custom or practice was the direct cause of Hildreth not receiving his Mirapex prescription on
time. Wexford asserts that Hildreth's medication was late only three times, which is not
enough to infer a custom or practice of deliberate indifference by Wexford, especially when
IDOC employees and Boswell Pharmacy could have caused or contributed to the delay.
In the Report and Recommendation, Magistrate Judge Wilkerson concluded that

Page 8 of 18

RSA19

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 9 of 18 Page ID #820

Defendants Butler and Oakley were not entitled to summary judgment because a question of
fact existed as to whether the accommodations provided to Hildreth were reasonable.
Magistrate Judge Wilkerson noted that Hildreth's increased access to the law library ended
at some point, and now Hildreth only has access once every other week. Furthermore, the
assistance he received from his counselor was limited, and the "legal assistant" they
assigned to him is another inmate who lacks a GED, spells poorly, and has illegible
handwriting. Finally, Magistrate Judge Wilkerson concluded Defendants Butler and Oakley
are not entitled to qualified immunity.
With regard to Wexford, Magistrate Judge Wilkerson first rejected the argument that
because there are no deliberate indifference claims pending against any Wexford employees,
there can be no valid policy or practice claim against Wexford. Magistrate Judge Wilkerson
then concluded that the Court need not determine the number of incidents required to show
a custom or practice because the number of times Hildreth's Mirapex arrived late is a
contested issue of material fact. Nevertheless, Magistrate Judge Wilkerson then concludes
that there was a minimum of five incidents in which Hildreth did not receive his medication
on time, and a jury could infer from these five incidents that there existed a pattern or
custom of not filling his prescriptions on time.
Wexford objected to the Report and Recommendation on three grounds. First,
Magistrate Judge Wilkerson omitted facts regarding the prescription refill process, including
how an inmate requests and then obtains a refill of his medication. Second, Wexford argues
the facts are insufficient to support a finding that it has a widespread custom or practice that
proximately caused Hildreth's injuries when there is no evidence other inmates were
affected or that only Wexford employees caused the alleged untimely refills. Third, Wexford

Page 9 of 18

1

RSA20

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 10 of 18 Page ID #821

objects to Magistrate Judge Wilkerson's conclusion that an underlying constitutional
violation by an individual is not a necessary prerequisite for a Monell claim.
Defendants Butler and Oakley did not object to the Report and Recommendation.
Legal Standard
Where timely objections are filed, this Court must undertake a de novo review of the
Report and Recommendation. 28 U.S.C. § 636(b)(1)(B), (C); FED. R. Civ. P. 72(b); SDIL-LR
73.1(b); Harper v. City of Chicago Heights, 824 F. Supp. 786, 788 (N.D. Ill. 1993); see also Govas v.
Chalmers, 965 F.2d 298, 301 (7th Cir. 1992). If no objection is made, the Court reviews the
Report and Recommendation only for clear error. Johnson v. Zema Sys, Corp., 170 F.3d 734,
739 (7th Cir. 1999). In reviewing the Report and Recommendation, the Court must look at all
of the evidence contained in the record and give fresh consideration to those issues to which
specific objections have been made. Id. (quoting 12 Charles Alan Wright et al., Federal Practice
and Procedure § 3076.8, at p. 55 (1st ed. 1973) (1992 Pocket Part)). The Court may then "accept,
reject, or modify, in whole or in part, the findings or recommendations made by the
magistrate judge." 28 U.S.C. § 636(b)(1).
Because Defendant Wexford has objected to the Report and Recommendation as it
applies to Wexford, the Court must review that portion of the analysis de novo. Because
Defendants Butler and Oakley did not object, however, the portion of the Report and
Recommendation pertaining to them will be reviewed only for clear error.
Summary Judgment
Summary judgment must be granted "if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law."
Fed. R. Civ. P. 56(a); see also Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986); Spath v. Hayes

Page 10 of 18

RSA21

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 11 of 18 Page ID #822

Wheels Int'l-Ind., Inc., 211 F.3d 392,396 (7th Cir. 2000). The Court must construe the evidence
in the light most favorable to the nonmoving party and draw all reasonable inferences in
favor of that party. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986); Chelios v.
Heavener, 520 F.3d 678,685 (7th Cir. 2008). The moving party bears the burden of establishing
that no material facts are in genuine dispute; any doubt as to the existence of a genuine issue
must be resolved against the moving party. Adickes v. S.H. Kress & Co., 398 U.S. 144, 160
(1970).
In responding to a motion for summary judgment, the nonmoving party may not
simply rest upon the allegations contained in the pleadings, but must present specific facts
to show that a genuine issue of material fact exists. Celotex, 477 U.S. at 322-26; Anderson, 4J7
U.S. at 256-57. A genuine issue of material fact is not demonstrated by the mere existence of
"some alleged factual dispute between the parties/' Anderson, 477 U.S. at 247, or by "some
metaphysical doubt as to the material facts." Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986). Rather, a genuine issue of material fact only exists if "a fair-minded
jury could return a verdict for the [nonmoving party] on the evidence presented." Anderson,
477 U.S. at 252.
Discussion
A. Deliberate Indifference as to Wexford Health Sources, Inc.
The Supreme Court has recognized that "deliberate indifference to serious medical
needs of prisoners" may constitute cruel and unusual punishment under the Eighth
Amendment. Estelle v. Gamble, 429 U.S. 97,104 (1976). In order to prevail on such a claim, a
plaintiff must show first that his condition was "objectively, sufficiently serious" and second
that the "prison officials acted with a sufficiently culpable state of mind," namely, deliberate

Page 11 of 18

RSA22

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 12 of 18 Page ID #823

indifference. Greeno v. Daley, 414 F.3d 645, 652-653 (7th Cir. 2005) (citations and quotation
marks omitted).
"Deliberate indifference to serious medical needs of prisoners constitutes the
'unnecessary and wanton infliction of pain.'" Estelle, 429 U.S. at 104 (quoting Gregg v.
Georgia, 428 U.S. 153, 173 (1976)). "The infliction of suffering on prisoners can be found to
violate the Eighth Amendment only if that infliction is either deliberate, or reckless in the
criminal law sense." Duckworth v. Franzen, 780 F.2d 645, 652-53 (7th Cir. 1985). Negligence,
gross negligence, or even "recklessness" as that term is used in tort cases, is not enough. Id.
at 653; Shockley v. Jones, 823 F.2d 1068,1072 (7th Cir. 1987).
While Wexford is a private corporation, under Seventh Circuit law, a private
company that has contracted to provide essential government services, such as health care
for prisoners, can be held liable if the constitutional violation was caused by an
unconstitutional policy, practice, or custom of the corporation itself. Shields v. Illinois Dep't of
Corr., 746 F.3d 782, 789 (7th Cir. 2014); see also Monell v. Dep't of Social Services of City of New
York, 436 U.S. 658 (1978).
In this case, Hildreth does not point to an official Wexford policy that is allegedly
unconstitutional. Instead, he claims Wexford has a widespread practice or custom of failing
to deliver prescription refills on time. To demonstrate that Wexford is liable for a harmful
custom or practice, Hildreth must present evidence that (1) the prescription refill process is
an unconstitutional practice and (2) the practice is widespread, that is, "so pervasive that
acquiescence on the part of policymakers was apparent and amounted to a policy decision."
Dixon v. Cty. of Cook, 819 F.3d 343, 348 (7th Cir. 2016) (quoting Phelan v. Cook Cty., 463 F.3d
773, 790 (7th Cir. 2006)); Grieveson v. Anderson, 538 F.3d 763, 773 (7th Cir. 2008).

Page 12 of 18

RSA23

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 13 of 18 Page ID #824

The Seventh Circuit has not adopted any bright-line rule defining "a widespread

m
custom or practice," except that the conduct must occur more than once "or even three"
times to impose Monell liability. Id. "[T]he plaintiff must demonstrate that there is a policy at
issue rather than a random event. This may take the form of an implicit policy or a gap in
expressed policies ... or a series of violations to lay the premise of deliberate indifference."
Id. (citation omitted). As explained by the Court of Appeals, "[t]his requires more than a
showing of one or two missteps." Id. Rather, the Court must determine whether a trier of fact
could find "systemic and gross deficiencies" in the defendant's procedures. Id. Even then, a
Monell claim can only prevail if policymakers knew of the deficiencies and failed to correct
them. Id.-, see also Thomas v. Cook Cty. Sheriff's Dep't, 604 F.3d 293,303 (7th Cir. 2010).
For the purposes of summary judgment, Wexford does not dispute that Hildreth
suffers from an objectively serious medical need. Accordingly, the Court assumes without
deciding that Hildreth's Parkinson's disease was a serious medical need. The issue at hand is
whether Wexford was deliberately indifferent to that need due to some unconstitutional
practice or custom.
The Court first notes while the Report and Recommendation states there are at least
five instances in the record where Hildreth did not receive his medication on time, it appears
there are only three documented instances. Hildreth filed grievances relating to his medicine
on April 8, 2014, October 25, 2014, and November 16, 2015. Hildreth's October 30, 2014
grievance actually complains of the need for staff assistance in writing grievances related to
his medication refills, not about the refills themselves (Doc. 46-8). Further, the notation on
January 15, 2016, in Hildreth's grievance history, referred to by Magistrate Judge Wilkerson,
appears to refer to the ARB's return of his November 16, 2015 grievance (Docs 43-3, 43-4).

Page 13 of 18

RSA24

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 14 of 18 Page ID #825

That leaves, as summary judgment evidence, Hildreth's testimony that he filed a
grievance any time his medication did not arrive on time, three grievances — filed over the
span of a year and a half—complaining that he did not get his medicine on time, and his
testimony that his Mirapex arrived late at least three times.3 On two of those occasions, the
record indicates Hildreth received his medication within a couple of days of his prescription
lapsing (and there is no evidence as to when he submitted his refill sticker on those two
occasions). The third time, the Healthcare Unit advised that Hildreth's prescription had
expired, and the request to continue using Mirapex was sent to the pharmacy. Dr. Matticks
explained that Mirapex is a non-formulary medication, meaning it is not kept in stock at
Menard but rather has to be filled by Boswell Pharmacy after approval by the pharmacy's
clinical pharmacists. Dr. Matticks further testified that at least one of Hildreth's lapses
occurred around the chronic clinics, which Hildreth apparently did not attend, thereby
causing the delay. Hildreth has presented no evidence that any other inmates were affected
by this alleged unconstitutional practice.
The Seventh Circuit has held that while "it is not impossible for a plaintiff to
demonstrate the existence of an official policy or custom by presenting evidence limited to
his experience ... it is necessarily more difficult. . . because what is needed is evidence that
there is a true municipal policy at issue, not a random event. Grieveson v. Anderson, 538 F.3d
763, 774 (7th Cir. 2008) (citations omitted). In Grieveson, the Court found that four incidents
in which jail guards gave the plaintiff his entire prescription at once, thereby exposing him
to the risk of having his medication stolen by other inmates, was not evidence of a
widespread practice or reflective of a policy choice by the defendant. Id. Tire Court explained

3 Hildreth's April 8,2014 grievance does complain he is out of his medicine "again." When asked whether
the number of times his medicine was delayed was less than ten times, Hildreth responded, "could be."
Page 14 of 18

RSA25

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 15 of 18 Page ID #826

that evidence of four incidents that the plaintiff alone experienced "simply is not enough to

e
foster a genuine issue of material fact that the practice was widespread — from that evidence
alone an inference does not arise that the county itself approved, acquiesced, or encouraged
the disbursement of entire prescriptions at once." Id. at 774-75.
Hildreth argues in his summary judgment response that Grieveson is distinguishable
because, in that case, the plaintiff was complaining about a deviance from an actual written
policy, whereas here there is no evidence of a written policy that instructs Wexford's
employees how to act in a constitutional manner. Thus, Hildreth argues, whether Wexford's
policy of "condon[ing] whatever practices its employees develop" is constitutional is a
question for the jury. This argument fails for two reasons. First, the portion of Grieveson cited
to by Hildreth was discussing the plaintiff's challenge to the prison's grievance procedure,
which is irrelevant to this case. Second, Dr. Matticks testified to Wexford's policies related to
prescription medications. Dr. Matticks was not at all uncertain as to how prescription
medication is dispensed at Menard, nor was he only describing the process by "vague
references to the customs and practices of its employees." These are not questions of fact for
a jury.
The Court instead finds Grieveson quite on point with this case. Hildreth has evidence
of only three instances over the span of a year and a half in which his own medication was
delayed. Based on this record, there is not enough evidence for a reasonable jury to find that
Wexford encouraged a widespread practice of failing to timely refill prescriptions.
Therefore, Wexford is entitled to summary judgment.
B. ADA Claim as to Defendants Butler and Oakley
Title II of the ADA provides that "no qualified individual with a disability shall,

Page 15 of 18

RSA26

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 16 of 18 Page ID #827

because of that disability ... be denied the benefits of the services, programs, or activities of
a public entity, or be subjected to discrimination by any such entity." 42 U.S.C. § 12132
(2006). "In the prison context, a plaintiff can make out a prima facie case of discrimination
under both the ADA ... by showing: (1) he is a qualified person; (2) with a disability; (3) the
Department of Corrections denied him access to a program or activity because of his
disability or otherwise subjected him to discrimination; and (4) the denial or discrimination
was by reason of his disability." Farris v. Kurr, No. 16-CV-272-SMY-RJD, 2018 WL 3036130, at
*3 (S.D. Ill. June 19, 2018) (citing Jaros v. Illinois Dep't of Con., 684 F.3d 667, 672 (7th Cir.
2012)).
Failure to make reasonable accommodations to ensure participation in the public
entity's programs or services by a person with a disability qualifies as "discrimination."
42 U.S.C. § 12112(b)(5)(A). Evaluating the reasonableness of a particular accommodation in
the prison context is particularly fact-intensive and determined on a case-by-case basis by
balancing the cost to the defendant and the benefit to the plaintiff. Golden v. Illinois Dep't of
Con., No. 12-CV-7743,2016 WL 5373056, at *4 (N.D. Ill. Sept. 26,2016) (citing Dadian v. Vill. of
Wilmette, 269 F.3d 831, 838 (7th Cir. 2001); Holmes v. Godinez, 311 F.R.D. 177, 226 (N.D. Ill.
2015)). "Security concerns, safety concerns, and administrative exigencies [are] important
considerations to take into account." Id. (citing Love v. Westville Corr. Ctr., 103 F.3d 558, 561
(7th Cir. 1996)). The key question is whether the inmate was able to participate in the
activities in question, given his disability, with or without reasonable accommodations from
the prison. Love, 103 F.3d at 560.
As discussed above, Magistrate Judge Wilkerson found Defendants Butler and
Oakley were not entitled to summary judgment because a question of fact existed as to

Page 16 of 18

RSA27

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 17 of 18 Page ID #828

whether the accommodations provided to Hildreth were reasonable. Magistrate Judge
Wilkerson noted that Hildreth's increased access to the law library ended at some point, and
now Hildreth only has access once every other week. Furthermore, the assistance he
received from his counselor was limited, and the "legal assistant" Defendants assigned to
him is another inmate who lacks a GED, spells poorly, and has illegible handwriting.
When considering the prison's safety and security concerns (Menard is a
maximum-security prison), as well as the fact that Hildreth has been able to draft legal
documents and other correspondence, the Court finds that the accommodations provided
are reasonable as a matter of law. From August 2013 to July 9, 2015, Hildreth was able to
attend the law library and access a typewriter three times a week for six hours a day.. He also
could contact an officerJn emergencvjdtuations. and a counselor was available to assist
him.4 The increased access to the law library was only rescinded when Hildreth was
assigned a personal ADA attendant to write for him. While Hildreth complains the
attendant cannot spell and has sloppy handwriting, he also admits he has not missed any
deadlines or had any court filings returned as a result. Thus, with the accommodations made
available to him, Hildreth is able to write documents. Finally, while Hildreth complains
about the skills of his attendant, the Report and Recommendation overlooks the affidavit
from the current ADA Coordinator, Angela Crain, who attested that if Hildreth does not
want to use the ADA attendant, "he can simply request extra library time again in lieu of the
attendant and the ADA attendant will then be assigned to another inmate." (Doc. 83-3).
Because these accommodations are reasonable as a matter of law, the Report and

4 The counselor was available from July 2, 2012 to September 12, 2012. At that time, it was determined Hildreth could
write on his own and did not require a counselor's assistance. Hildreth was advised, however, that emergency staff
assistance was still available anytime (Doc. 46-13).

Page 17 of 18

RSA28

Case 3:15-cv-00831-NJR-DGW Document 97 Filed 07/17/18 Page 18 of 18 Page ID #829

Recommendation is clearly erroneous in recommending that summary judgment be denied
as to Defendants Butler and Oakley.
Conclusion
For these reasons, the Court respectfully REJECTS the Report and Recommendation
(Doc. 90) and GRANTS the motion for summary judgment filed by Wexford Health
Sources, Inc. (Doc. 79) and the motion for summary judgment filed by Defendants Kim
Butler and Lori Oakley (Doc. 82). This action is DISMISSED, and the Clerk is DIRECTED to
enter judgment accordingly.
IT IS SO ORDERED.
DATED: July 17,2018

NANCY J. ROSENSTENGEL
United States District Judge

Page 18 of 18

RSA29

r

\r

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 1 of 10 PagriD#748

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

SCOTT HILDRETH,
Plaintiff,
v.

KIM BUTLER, LORI OAKLEY, and
WEXFORD HEALTH SOURCES,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 3:15-cv-831 -NJR-DGW

REPORT AND RECOMMENDATION
WILKERSON, Magistrate Judge:
This matter has been referred to United States Magistrate Judge Donald G. Wilkerson by
United States District Nancy J. Rosenstengel pursuant to 28 U.S.C. § 636(b)(1)(B), Federal Rule
of Civil Procedure 72(b), and SDIL-LR 72.1(a) for a Report and Recommendation on the Motion
for Summary Judgment filed by Wexford Health Sources (Doc. 79) and the Motion for Summary
Judgment filed by Defendants Butler and Oakley (Doc. 82). For the reasons set forth below, it is
RECOMMENDED the motions be DENIED, and that the Court adopt the following findings of
fact and conclusions of law.

Findings of Fact
On July 30, 2015 Plaintiff Scott Hildreth filed a complaint in this action (Doc. 1). The
Court conducted a threshold review, but due to the “illegibility and fragmented nature” of the
document, had difficulty discerning Plaintiffs claims (Doc. 6, p. 3). The complaint was dismissed
Page 1 of 10

RSA1

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 2 of 10 Page ID #749

for failure to state a claim, but counsel was appointed to represent Hildreth and was given leave to
file an Amended Complaint (Doc. 6). Currently pending before the Court are the following claims:

Count 1 - Discrimination and Deprivation of Rights, against Defendants Butler,
Oakley, for discriminating against Plaintiff and denying him reasonable accommodation
for his disabling Parkinson’s disease condition (specifically, access to the prison law
library) in violation of the Americans With Disabilities Act and 42 U.S.C. § 1983;
Count 3 - Delayed Medical Attention, against Defendant Wexford Health.
Hildreth suffers from Parkinson’s disease which results in “freezing” episodes where he is
unable to move, loses his balance, shuffles his feet to move, has hand tremors, and loss of
concentration (Doc. 26, H 3). He has been prescribed Mirapex to treat his symptoms, which is a
“non-formulary” medication (Doc. 84, p. 1; Doc. 80, 7). Wexford Health Sources contracts with
the IDOC to provide medical services, including evaluating patients and prescribing medication
(Doc. 80, T1 4). The prescribing physician, a Wexford employee, is responsible for preparing any
request forms for non-fonnulary medications such as Mirapex (Doc. 80, U 9). While Boswell
pharmacy is responsible for filling the prescriptions, the pharmacy will contact the Wexford
physician for clarification if it has concerns about the prescription (Doc. 80,

9). Nursing staff,

some Wexford employees and others IDOC employees, dispense and are responsible for taking
care of refills of medication (Doc. 80,

11). Hildreth alleges refills of his medication are

regularly delayed resulting in dangerous and debilitating symptoms (Doc. 84, p. 1).
Because Hildreth is unable to write legibly when suffering from his symptoms (Doc. 26, ^
3), he requires the use of a typewriter or other assistive technology. Hildreth alleges that other
inmates were permitted supplies in their cells to draft documents and communications (Doc. 84-1,
50:20-51:12). It is undisputed that Hildreth requested to keep a typewriter (that he purchased
himself) or a word processor in his cell, but those requests were denied by the prison (Doc. 83, p.
Page 2 of 10

RSA2

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 3 of 10 Page ID #750

4).
Instead, Defendants Butler and Oakley state they authorized Hildreth to use a typewriter in
the library three days a week, made arrangements for a counselor to “come around” on the other
days to help Hildreth, and placed him on the automatic call line to the law library when he was 90
days out from a court deadline (Doc. 83,

7, 8). Defendants admit, however, that “at some point”

the three days a week access to the library was stopped (Doc. 83, ^ 11, 12). Further, the record
indicates the counselor only provided additional assistance to Hildreth for approximately two
months, in 2012 (Doc. 46-13, pp. 2, 5). Thus, the only accommodation Hildreth currently appears
to have is access to the law library every other week (Doc. 83, Tflj 11, 12) and an “ADA assistant”
(Doc. 83, TH1 11, 12). According to Hildreth’s deposition testimony, however, this assistant is
another inmate with no specific training, who never graduated from High School, spells poorly and
produces handwriting barely more legible than his own (Doc. 84-1, 20:16-20). Further, Hildreth
testified that despite requests by both himself and his “assistant,” the prison has refused to provide
a more qualified replacement (Doc. 84-1, 21:8-22:2).

Conclusions of Law
I. Wexford Health Sources
The Supreme Court has recognized deliberate indifference to the serious medical needs of
prisoners may constitute cruel and unusual punishment under the Eighth Amendment. Estelle v.
Gamble, 429 U.S. 97, 104 (1976). In order to prevail on a claim for deliberate indifference to a
serious medical need, however, there are “two high hurdles, which every inmate-plaintiff must
clear.” Dunigan ex rel. Nyman v. Winnebago Cnty., 165 F.3d 587, 590 (7th Cir. 1999). First, the
plaintiff must demonstrate he suffered from an objectively serious medical condition. Id. at
591-92. Because Wexford does not address the first element in its motion or memorandum of law

Page 3 of 10

RSA3

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 4 of 10 Page ID #751

(Doc. 80), the Court finds it conceded for purposes of summary judgment.
Second, the plaintiff must establish the defendant was deliberately indifference to that
serious medical condition. Dunigan, 165 F.3d at 591-92. When the defendant is a corporation,
liability is limited to those situations where the corporation maintains a policy or practice that
causes the underlying constitutional violation. Woodward v. Corr. Med. Serv. ofIII., Inc., 368 F.3d
917, 927 (7th Cir. 2004). The plaintiff must present evidence of such a policy or practice at the
summary judgment stage and has the burden of showing that the policy or custom was the moving
force behind the alleged constitutional violation. Grieveson v. Anderson, 538 F.3d 763, 771 (7th
Cir. 2008).
There are three possible forms of unconstitutional policies or practices: (1) an express
policy; (2) a widespread practice that constitutes a custom or usage even if informal in nature; and
(3) an allegation that the injury was caused by a person with final policy making authority. Palmer
v. Marion County, 327 F.3d 588, 594-95 (7th Cir. 2003). Here, the only policy or practice at issue
in that relating to a widespread practice that constitutes a custom or usage.1 When alleging a
policy exists as demonstrated by a widespread practice, the Seventh Circuit has been clear that
evidence of isolated acts is insufficient; rather the plaintiff must present evidence of a series of
violations. Palmer v. Marion County, 327 F.3d 588, 596 (7th Cir. 2003) (citing Jackson v. Marion
County, 66 F.3d 151, 152 (7th Cir. 1995)).
Wexford first argues they are entitled to summary judgment because there are no deliberate
indifference claims pending against any Wexford employees, which Wexford argues is a
necessary precursor for a policy and practice claim (Doc. 80, p. 8). In support of this contention,
i

Plaintiff states the issue is whether Wexford’s custom or practice failed to ensure Hildreth’s Mirapex was refilled in
a timely manner (Doc. 84, p. 13). Thus, it appears Plaintiff is not arguing the existence of a formal written policy.
Several of the arguments made by Defendants are applicable to either a written policy or a custom and practice claim.
Thus, the Court will consider the arguments as they relate to a custom and practice claim, even if they were raised in a
section of Defendant’s brief relating to a written policy.

Page 4 of 10

RSA4

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 5 of 10 Page ID #752

Wexford relies on Minix v. Canareccif In Minix, a corporation’s employee allegedly conducted
an insufficient suicide assessment of a prisoner. Minix v. Canarecci, 597 F.3d 824, 832 (7th Cir.
2010). Subsequently, other actors not employed by the corporation, intervened and set into motion
the events leading to the plaintiffs death. Id. The Seventh Circuit focused on these intervening
facts, finding there was no evidence the corporation’s actions were the “direct cause” of the injury.
Id. at 832-33. Thus, the Seventh Circuit found the facts in the case insufficient to prove a practice
of the corporation caused the prisoner’s death. Id. at 833. The Court did not create a per se rule that
a policy and practice claim cannot exist absent a contemporaneous legal claim against a
corporation’s employee.
More in line with the Minix decision, Wexford also argues Plaintiff has failed to produce
evidence that Wexford’s practices caused the delay in Hildreth obtaining his Parkinson’s
medication. While isolated acts are insufficient to prove a practice or custom, the Seventh Circuit
has been clear that a corporation’s failure to respond to a series of bad acts by employees is
evidence it encouraged or condoned the behavior; and therefore proof of deliberate indifference.
Woodward v. Correctional Medical Services of III, Inc., 368 F.3d 917, 927 (7th Cir. 2004).

Wexford claims the only evidence of failure to refill Hildreth’s prescriptions that can be
considered by the Court are those grievances that were found to be administratively exhausted;
thus limiting the evidence to three of Hildreth’s grievances (See Doc. 80, pp. 2,13). Wexford then
argues that these three incidents are per se insufficient to show a practice or custom (Doc. 80, pp.
12-13). Wexford cites to no authority, however, for the proposition that only fully grieved

2 Wexford also cites to Lang v. City of Round Lake Park, 87 F.Supp.2d 836, 841 (N.D. Ill. 2000). The citation
provided by Wexford is to a single sentence relating to the sustainability of a claim against a municipality in a Fourth
Amendment search and seizure case. Thus, the Court finds the case inapposite.
In making its argument, Wexford cites to three cases. The first, Grieveson v. Anderson, 538 F.3d 763, 774-75 (7th
Cir. 2008), the Court held that four incidents of an inmate receiving a full bottle of pills was insufficient to show a
custom or practice. In Estate of Moreland v. Dieter, 395 F.3d 747, 760 (7th Cir. 2005) the Court found that three

Page 5 of 10

RSA5

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 6 of 10 Page ID #753

allegations can be considered as evidence of a custom or practice in a Monell claim, and the Court
finds no basis for doing so.
Further, the Court need not determine what, if any, minimum number of incidents is
required to show a custom or practice, because how many incidents occurred here is a contested
material issue of fact. Included in the record are four grievances complaining about a failure to
provide medication in a timely manner between April 8,2014 and November 16,2016 (Doc. 46-4;
46-6; 46-8; and 43-4). There is also a notation to an additional grievance in Hildreth’s “inmate
history” dated January 15, 2016 (Doc. 43-3). Further, in his first grievance (Doc. 46-4) Hildreth
states “I am out of my Parkinson’s meds (AGAIN)” indicating Hildreth had earlier and additional
difficulties obtaining his medication in a timely manner. Thus, construing the evidence in the light
most favorable to the non-movant, the Court finds there is evidence of a minimum of five incidents
of Hildreth failing to receive his medication in a timely manner. It is certainly possible that a jury
could infer, based on the number of incidents in the record, that there existed a pattern or custom of
not filling Hildreth’s prescriptions in a timely manner.4
Because material issues of fact exist it is RECOMMENDED the Court DENY Wexford’s
Motion for Summary Judgment (Doc. 79).

II. Defendants Butler and Oakley
Defendants Butler and Oakley argue they are entitled to summary judgment because they

individual incidents of pepper spraying three separate inmates was insufficient to show a custom or practice. In
Palmer v. Marion Cnty., 327 F.3d 588, 595 (7th Cir. 2003), die Court held evidence of two incidents of
inmate-on-inmate violence over the course of a year was insufficient to show a widespread practice. While the
Grieveson case is the most analogous to the facts here, the Com! is not convinced that the case creates a perse rule as
opposed to a finding based on the particular facts of the case.
4
Wexford’s also argues that because multiple people and corporations are involved with the prescribing, processing
and distribution of prescriptions “it could be very well be that a non-Wexford employee.. .played a substantial role in
the alleged medication lapses” (Doc. 80, p. 11). At best, this argument raised a material issue of fact. A reasonable jury
could certainly infer that Wexford, as the party responsible for ensuring Hildreth was prescribed and received proper
medication, combined with the repeated delays in providing him with that medication, evidence Wexford’s deliberate
indifference despite the fact that other agencies assist Wexford in providing its services.

Page 6 of 10

RSA6

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 7 of 10 Page ID #754

reasonably accommodated Hildreth’s disability, and are therefore not liable under the Americans
with Disabilities Act (Doc. 83, p. 6). In the alternative, they argue they are entitled to qualified
immunity because their actions did not violate clearly established statutory or constitutional law
(Doc. 83, p. 8).
A. Americans with Disabilities Act
Title II of the ADA states “no qualified individual with a disability shall, by reason of such
disability, be excluded from participation in or be denied the benefits of the services, programs or
activities of a public entity, or be subjected to discrimination by any such entity.” 42 U.S.C. §
12132. A plaintiff will make out a prima facie case of discrimination under the ADA by showing
they: (1) suffer from a disability as defined in the statutes, (2) are qualified to participate in the
program in question, and (3) were either excluded from participating in or denied the benefit of
that program based on a disability. Novak v. Bd. of Trustees of S. III. Univ., 77 F.3d 966, 974 (7th
Cir. 2015) (citing Jackson v. City of Chicago, 414 F.3d 806, 810 (7th Cir. 2005)). Here,
Defendants Butler and Oakley do not dispute Hildreth qualifies as a person with a disability (Doc.
83, p. 7). They also raise no argument that Hildreth was unqualified to participate in the prison
programs, thereby conceding that issue. Thus, the Court finds the only remaining issue is whether
Hildreth was excluded from participating in or denied the benefit of a prison program because of
his disability.
Failure to make reasonable accommodations to ensure participation in the public entity’s
programs or services by a person with a disability qualifies as “discrimination.” 42 U.S.C. §
12112(b)(5)(A); Wise. Cmty. Servs., Inc. v. City ofMilwaukee, 465 F.3d 737, 753 (7th Cir. 2006).
Although somewhat inarticulately, Hildreth testified in his deposition that other inmates were
permitted supplies in their cells to draft documents and communications (Doc. 84-1, 50:20-51:12).

Page 7 of 10

RSA7

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 8 of 10 Page ID #755

Because Hildreth has difficulty writing by hand due to his Parkinson’s, he states he cannot write in
his cell like non-disabled inmates without a typewriter or word processor (Doc. 85, p. 7). The
typewriter Hildreth had purchased, however, was confiscated by the prison and his request for a
word processor was denied on the grounds that word processors are obsolete (Doc. 84-1, p. 27;
Doc. 83, p. 11). The Seventh Circuit has held the inability of a disabled inmate to access prison
services on the same basis as non-disabled inmates means the prison had failed to provide a
reasonable accommodation. 684 F.3d 667, 672 (7th Cir. 2012) (emphasis added). Thus, because
Hildreth was not provided the means to produce legal documents or other forms of communication
in his cell, like the non-disabled inmates, a jury could find he was denied access to the same
programs and services.
Defendants argue, however, they provided other accommodations that were sufficient.
Specifically, that Hildreth was allowed to use a typewriter in the library several times per week,
more often when a court deadline was approaching (Doc. 83, p. 8), and that on the days Hildreth
could not access the library a counselor would come by to assist him with writing (Doc. 84-1,
42:4-16). Defendants admit the increased access to the library, however, ended at some
unidentified point and that Hildreth now only has access once every other week (Doc. 83, p. 3).
According to the Cumulative Counseling Summary, the counselor’s assistance was quite limited,
only provided for approximately two months

between July 3, 2012 and September 10, 2012

(Doc. 46-13, pp. 2, 5). Defendants allege they have further accommodated Hildreth by assigning
him a “legal assistant” (Doc. 83, f 14). According to Hildreth’s deposition testimony, however, the
individual assigned to him is another inmate with no specific training, who never graduated from
High School, spells poorly and produces handwriting barely more legible than his own (Doc. 84-1,
20:16-20). Further, Hildreth testified that despite requests by both himself and his “assistant,” the

Page 8 of 10

RSA8

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 9 of 10 Page ID #756

prison has refused to provide a more qualified replacement (Doc. 84-1, 21:8-22:2). Thus, a
question of fact exists as to whether the accommodations provided by Butler and Oakley were in
fact reasonable, making summary judgment improper.
B. Qualified Immunity
Finally, Defendants argue they are entitled to qualified immunity (Doc. 83, pp. 8-9). Qualified
immunity protects government officials from liability for civil damages as long as their “conduct
does not violate clearly established statutory or constitutional rights of which a reasonable person
would have known.” Pearson v. Callahan, 555 U.S. 223, 231 (2009). To determine whether a
defendant is entitled to qualified immunity, the Court must consider two questions. First, do the
facts alleged by the plaintiff state a violation of a constitutional right? Pearson, 555 U.S. at 232;
Saucier v. Katz, 533 U.S. 194, 201 (2001). As discussed above, Hildreth has alleged facts
sufficient to state a violation of the ADA. Thus, the first element is met.
The second question is whether the violated right was clearly established at the time of the
alleged misconduct. Id. In determining whether a right is clearly established, the relevant question
is whether it would be clear to a reasonable individual the conduct was unlawful in the situation.
Saucier, 533 U.S. at 202. As discussed above, the Seventh Circuit has held the inability of a
disabled inmate to access prison services on the same basis as non-disabled inmates means the
prison had failed to provide a reasonable accommodation. 684 F.3d 667, 672 (7th Cir. 2012). That
is precisely what Hildreth is arguing happened here, that he was not allowed to write in his cell like
the non-disabled inmates because he was denied an accommodation necessary for him to do so.
Since there is Seventh Circuit precedent on point, the Court finds the law in this case is clearly
established. 5 Thus, Defendants

are not entitled to qualified immunity and it is

5 Defendants’ analysis of qualified immunity is extremely limited. The only argument Defendants make is that they
provided reasonable accommodations to Hildreth, and to find they did not would constitute imposition of a

Page 9 of 10

RSA9

Case 3:15-cv-00831-NJR-DGW Document 90 Filed 05/16/18 Page 10 of 10 Page ID #757

RECOMMENDED the Court DENY Defendants Butler and Oakley’s Motion for Summary
Judgment (Doc. 82).

Recommendations
For the foregoing reasons, it is RECOMMENDED the Motion for Summary Judgment
filed by Wexford Health Sources (Doc. 79) and the Motion for Summary Judgment filed by
Defendants Butler and Oakley (Doc. 82) be DENIED, and that the Court adopt the foregoing
findings of fact and conclusions of law.
It these recommendations are accepted, the following claims would remain before the
Court:
Count 1 - Discrimination and Deprivation of Rights, against Defendants Butler,
Oakley, for discriminating against Plaintiff and denying him reasonable accommodation
for his disabling Parkinson’s disease condition (specifically, access to the prison law
library) in violation of the Americans With Disabilities Act and 42 U.S.C. § 1983;
Count 3 - Delayed Medical Attention, against Defendant Wexford Health.
Pursuant to 28 U.S.C. § 636(b)(1) and SDIL-LR 73.1(b), the parties shall have fourteen
(14) days after service of this Report and Recommendation to file written objection thereto. The
failure to file a timely objection may result in the waiver of the right to challenge this Report and
Recommendation before either the District Court or the Court of Appeals. Snyder v. Nolen, 380
F.3d 279, 284 (7th Cir. 2004); United States v. Hemandez-Rivas, 348 F.3d 595, 598 (7th Cir.
2003).

DATED: May 16,2018

DONALD G. WILKERSON
United States Magistrate Judge
“heightened standard” (Doc. 83, p. 9). What the alleged heightened standard is and why it means the law was not
clearly established is not addressed. Thus, the Court declines to address the argument.

Page 10 of 10

RSA10

